<html>
<title> - [H.A.S.C. No. 111-153]REPORT ON THE BALLISTIC MISSILE DEFENSE REVIEW AND THE FISCAL YEAR 2011 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR MISSILE DEFENSE PROGRAMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                                     

                         [H.A.S.C. No. 111-153]

 
REPORT ON THE BALLISTIC MISSILE DEFENSE REVIEW AND THE FISCAL YEAR 2011 
   NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR MISSILE DEFENSE 
                                PROGRAMS

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 15, 2010

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
58-294                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2b4c5b446b485e585f434e475b0548444605">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

               JAMES R. LANGEVIN, Rhode Island, Chairman
JOHN SPRATT, South Carolina          MICHAEL TURNER, Ohio
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           TRENT FRANKS, Arizona
RICK LARSEN, Washington              DOUG LAMBORN, Colorado
MARTIN HEINRICH, New Mexico          MIKE ROGERS, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
                Bob DeGrasse, Professional Staff Member
                Leonor Tomero, Professional Staff Member
                 Kari Bingen, Professional Staff Member
                 Alejandra Villarreal, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page
Hearing:

Thursday, April 15, 2010, Report on the Ballistic Missile Defense 
  Review and the Fiscal Year 2011 National Defense Authorization 
  Budget Request for Missile Defense Programs....................     1

Appendix:

Thursday, April 15, 2010.........................................    31
                              ----------                              

                        THURSDAY, APRIL 15, 2010
REPORT ON THE BALLISTIC MISSILE DEFENSE REVIEW AND THE FISCAL YEAR 2011 
   NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR MISSILE DEFENSE 
                                PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Langevin, Hon. James R., a Representative from Rhode Island, 
  Chairman, Subcommittee on Strategic Forces.....................     1
Turner, Hon. Michael, a Representative from Ohio, Ranking Member, 
  Subcommittee on Strategic Forces...............................     3

                               WITNESSES

Gilmore, Hon. J. Michael, Director, Operational Test and 
  Evaluation, Office of the Secretary of Defense.................     9
O'Reilly, Lt. Gen. Patrick J., USA, Director, Missile Defense 
  Agency, U.S. Department of Defense.............................     7
Roberts, Dr. Bradley H., Deputy Assistant Secretary of Defense 
  for Nuclear and Missile Defense Policy, Office of the Secretary 
  of Defense.....................................................     6

                                APPENDIX

Prepared Statements:

    Gilmore, Hon. J. Michael.....................................    76
    Langevin, Hon. James R.......................................    35
    O'Reilly, Lt. Gen. Patrick J.................................    57
    Roberts, Dr. Bradley H.......................................    43
    Turner, Hon. Michael.........................................    39

Documents Submitted for the Record:

    Letter from the Hon. Michael R. Turner to Lt. Gen. Patrick J. 
      O'Reilly, dated April 15, 2010.............................    89

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................   107
    Mr. Langevin.................................................    93
    Mr. Larsen...................................................   106
    Mr. Turner...................................................   101


REPORT ON THE BALLISTIC MISSILE DEFENSE REVIEW AND THE FISCAL YEAR 2011 
   NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FOR MISSILE DEFENSE 
                                PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                          Washington, DC, Thursday, April 15, 2010.
    The subcommittee met, pursuant to call, at 2:14 p.m., in 
room HVC-210, Capitol Visitor Center, Hon. James R. Langevin 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. JAMES R. LANGEVIN, A REPRESENTATIVE 
 FROM RHODE ISLAND, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Langevin. Good afternoon. This hearing of the Strategic 
Forces Subcommittee will come to order. Today we will take 
testimony on the Ballistic Missile Defense Review (BMDR) and 
the fiscal year 2011 budget request for missile defense 
programs.
    Let me begin the hearing today by welcoming our three 
distinguished witnesses. First we have Dr. Bradley Roberts, 
Deputy Assistant Secretary of Defense for Nuclear and Missile 
Defense Policy. Dr. Roberts was responsible for coordinating 
the Department's Ballistic Missile Defense Review. Prior to his 
current duties, Dr. Roberts helped former Secretaries Perry and 
Schlesinger write the report on the Bipartisan Congressional 
Commission on the Strategic Posture of the United States. Dr. 
Roberts holds a bachelor's degree from Stanford University, a 
master's degree from the London School of Economics, and a 
doctorate from Erasmus University in Rotterdam, Holland.
    Next, Lieutenant General O'Reilly, Director of the Missile 
Defense Agency (MDA), has agreed to appear before the 
subcommittee to discuss his agency's programs and budget. 
General O'Reilly is a graduate of the U.S. Military Academy and 
has three master's degrees: one in physics, one in national 
security and strategic studies, and one in business. As a 
scientist, and through his skills as the program manager of 
highly technical projects, he has been instrumental in the 
success of many of MDA's most important programs, including its 
directed energy work, Patriot, Terminal High Altitude Area 
Defense (THAAD), and the Ground-based Midcourse Defense System.
    Finally, we will hear from Dr. Michael Gilmore, Director of 
Operational Test and Evaluation, about the operational status 
of our ballistic missile defense (BMD) systems. Prior to his 
confirmation, Dr. Gilmore served as the Assistant Director for 
National Security at the Congressional Budget Office. Dr. 
Gilmore has worked at the Pentagon before, having served for 11 
years in the Office of Program Analysis and Evaluation. Early 
in his career, Dr. Gilmore worked for the Lawrence Livermore 
National Laboratory on magnetic fusion energy. He is a graduate 
of MIT, where he earned a B.S. in physics, and he earned his 
master's and Ph.D. in nuclear engineering from the University 
of Wisconsin.
    Gentlemen, I want to thank each of you for being with us 
here today, and we certainly look forward to your testimony.
    As ballistic missile technology proliferates across the 
globe and increases in capability, the potential threat to our 
Nation and our allies grows as well. Continued developments in 
both Iran and North Korea are our most urgent concerns. While 
recent intelligence estimates have highlighted the growing 
number of short- and medium-range missiles developed by these 
nations, both of these rogue states continue, as we know, to 
work on intercontinental ballistic missile (ICBM) technology 
that could lead to missiles which directly threaten our 
homeland.
    This past September, President Obama announced his plan for 
strengthening missile defenses in Europe through a Phased, 
Adaptive Approach to deploying defenses against the threat of 
Iranian ballistic missiles. On February 1, with the release of 
the budget, the Department submitted its first-ever Ballistic 
Missile Defense Review. The Administration's review established 
six clear objectives to guide ballistic missile programs.
    First, the U.S. will continue to defend the homeland 
against the threat of limited ballistic missile attack.
    Second, the U.S. will defend against regional missile 
threats to U.S. forces, while protecting allies and partners 
and enabling them to defend themselves.
    Third, before new capabilities are deployed, they must 
undergo testing that enables assessment under realistic 
operational conditions.
    Fourth, the commitment to new capabilities must be fiscally 
sustainable over the long term.
    Fifth, BMD capabilities must be flexible enough to adapt as 
threats change.
    And, finally, the U.S. will seek to lead expanded 
international efforts for missile defense.
    The BMDR also endorsed applying the new Phased, Adaptive 
Approach across the board, including for the defense of South 
Korea, Japan, and our allies in the Middle East. This new 
approach links missile defense deployments more directly to the 
current threat; provides for flexible responses to future 
threats; and signals to the Russians, the Chinese, and the 
world that we are serious about maintaining strategic 
stability.
    As we all know, ballistic missile defense is sometimes a 
controversial subject, but I believe that there is much greater 
consensus on this matter than meets the eye. In 1999, an 
overwhelming bipartisan majority of the House of 
Representatives voted to deploy a national missile defense 
system capable of defending the territory of the United States 
against limited ballistic missile attack. Since that time 
Congress has appropriated over $90 billion for missile defense, 
and the Pentagon has delivered 30 ground-based interceptors 
(GBIs) effective against long-range missiles that might be 
launched by Iran or North Korea; 52 batteries of Patriot short-
range missiles, 44 of which are capable of launching the 
advanced Patriot Advanced Capability-3 (PAC-3) missile; 2 
Terminal High-Altitude Air Defenses, or THAAD, batteries and 16 
interceptors; and 55 medium-range Standard Missile 3 (SM-3) 
interceptors. The program has also converted 28 Aegis ships to 
use the SM-3 interceptors.
    And this year the President's budget provides another $9.9 
billion for missile defense programs, an increase of $670 
million over the fiscal year 2010 appropriated level.
    The consensus that paved the way for these developments is 
rooted in the basic principles that missile defenses should 
discourage rogue nations from developing threatening systems 
and that deployment of U.S. defenses protect us against those 
threats, but should not create strategic instability or 
increase the risk of nuclear war.
    Yet a new strategy alone will not be enough. The 
Administration must convince Congress that it has an effective 
plan for ensuring that our defense systems are thoroughly 
tested, and that sufficient resources will be allocated to make 
sure that our missile defense systems are available when we 
need them.
    That said, we are eager to hear from each of you this 
afternoon. Dr. Roberts, I am especially interested in your 
thoughts on how we should balance our efforts to defend the 
homeland with the challenges of building regional defenses 
against short- and medium-range missile threats.
    General O'Reilly, I had asked if you would focus on how the 
BMDR and the Phased, Adaptive Approach have modified the MDA's 
plans for testing and deployment over the past year.
    And, finally, Dr. Gilmore, we look forward to hearing your 
assessment of the operational capabilities of each of the 
components of the Ballistic Missile Defense System.
    With that, again, gentlemen, I want to welcome you here 
today and I look forward to your testimony.
    Before I turn the floor over to you, though, I want to turn 
to the ranking member for any comments he may have.
    [The prepared statement of Mr. Langevin can be found in the 
Appendix on page 35.]

 STATEMENT OF HON. MICHAEL TURNER, A REPRESENTATIVE FROM OHIO, 
        RANKING MEMBER, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Turner. Thank you, Mr. Chairman.
    I would like to welcome Dr. Roberts, General O'Reilly and 
Dr. Gilmore. I appreciate you being here today, and I 
appreciate your attention to these important issues.
    I also think it might be appropriate if, in the opening of 
this hearing, that we recognize the tragedy with Polish 
President Kaczynski. The Polish Government was so accommodating 
and welcoming of what are our important missile defense assets, 
and we certainly are all saddened by the tragedy of his 
military and civilian leaders who perished in the weekend's 
airplane accident.
    Well, we have a lot of ground to cover today, so let us 
dive into some of the issues that are of concern to me.
    First, I am very concerned by recent comments from 
Administration officials that, essentially, Congress has 
everything it needs to know about the Phased, Adaptive 
Approach, PAA. As Under Secretary Tauscher said at our hearing 
yesterday in reference to PAA details, ``It's on the 
Internet.'' Well, unfortunately, the Internet does not provide 
sufficient details on the four phases of the PAA, nor does it 
provide a description of the options considered by the 
Administration in addition to the PAA and the analysis to 
support why it was chosen as the preferred approach.
    Now, let me share a few examples of information that the 
committee does not have.
    Phase 1 of the PAA calls for the deployment of a forward-
based radar in Europe by the end of 2011. Now, we are 
considering the fiscal year 2011 budget request, yet we don't 
have where this radar will be located or how long host nation 
negotiations might take. Right now this would appear to be a 
high schedule risk item.
    We do not know the number of ships, interceptors, and 
sensors that will be required for each phase, nor do we know 
the estimated costs or acquisition strategies for each phase.
    We have minimal information on the technical feasibility, 
expected performance, and cost of the SM-3 Block IIA and IIB 
interceptors, which Senator Lieberman called ``paper systems'' 
just last year. So far, I am a little concerned as to why the 
Administration would be so slow in providing the information.
    And, lastly, while we have positive statements from the 
North Atlantic Treaty Organization (NATO) Secretary General, we 
have yet to see details of a ``NATO-ization'' of the PAA, its 
integration with NATO's missile defense architecture, and any 
allied contributions.
    Now, today, General O'Reilly, you provided a great deal of 
detail to us that we are going to be digesting from that. You 
have indicated that we can take, in a review of the 
information, the types of information to provide us milestones 
to be able to look at. We greatly appreciate your providing 
that to us.
    Also today, I provided the General with a letter requesting 
his assistance in focusing on the issue of Phase 4 of PAA being 
the phase where mainland United States really becomes engaged 
with the assistance of missile defense. And I have a copy of 
that letter, if we can add that into the record, Mr. Chairman.
    Mr. Langevin. Without objection.
    [The information referred to can be found in the Appendix 
on page 89.]
    Mr. Turner. I appreciate all of your expertise and all of 
your dedication. I know that you guys have worked diligently to 
ensure that we have a quality system, and I look forward to the 
exchange and the additional information you can provide so that 
we can work even more closely together.
    I want to note that this committee had asked similar 
information of the prior administration on its prior proposed 
configuration of missile defense. And I think that this is an 
opportunity to gain bipartisan support for the current PAA 
plan, but the committee must have confidence that the PAA is 
the best approach for protecting the United States and our 
European allies, and then, of course, mainland United States.
    Second, my second concern is the 30 percent increase to the 
Ground-Based Midcourse Defense program is welcome--after last 
year's reductions--as in the Department's decision to finish 
Missile Field 2 in Alaska. However, it is unclear whether MDA 
has planned and budgeted for a sufficient number of ground-
based interceptors, GBIs, to support reliability flight testing 
through 2030 and to accommodate test failures or surge 
scenarios. The health of the industrial base supporting the GMD 
program remains a concern, and the last thing any of us want to 
see are GMD options precluded because suppliers went cold.
    In addition, the BMDR states that the U.S. ``will continue 
development and assessment of a two-stage ground-based 
interceptor'' as a hedging strategy for defense of the 
homeland. We are interested to see how does MDA plan to make it 
a viable hedging strategy, particularly when the budget request 
removes some two-stage GBI flight tests and delays others? I am 
concerned that such delays may preclude the two-stage GBI from 
being considered as a viable hedge.
    Third, the Ballistic Missile Defense Review states that the 
Phased, Adaptive Approach will be tailored to other regions. 
And we know qualitatively that these new regional missile 
defense architectures will have significant force structure and 
inventory implications. However, without any tailored 
understanding of these plans, basing locations, inventory 
requirements and costs, it is difficult to assess whether MDA's 
budget is sufficient.
    One thing is clear: Demand exceeds supply. Despite plans 
for Aegis and THAAD inventory growth, the bulk of the funding 
is planned for out-years. This creates near-term production 
gaps and inefficiencies for industry. An example shortfall is 
Aegis SM-3 interceptors. The Administration wants an inventory 
of 436 interceptors by 2015, yet is only buying eight new 
interceptors in this year's budget. Industry is sized to build 
48 interceptors a year. Why were such decisions made?
    Fourth, we need to see a long-term commitment towards a 
robust research and development program. I worry that we are 
giving up on some promised technologies while rushing to pursue 
others. The Airborne Infrared, ABIR; Precision Tracking Space 
System (PTSS); and SM-3 Block IIB are interesting concepts, but 
still unproven technologies.
    Meanwhile, the Airborne Laser (ABL)--I appreciate the 
briefing that we just had with the General--recently 
demonstrated a successful missile shoot-down, yet the budget 
request appears insufficient to maintain the aircraft, conduct 
flight experiments, and fund further development of innovative 
directed energy technologies.
    Fifth, I remain concerned that Russian linkage between U.S. 
missile defense activities and their adherence to the New START 
Treaty may have the potential to self-constrain U.S. missile 
defense activities. After all, the U.S. scrapped plans to 
deploy GBIs in Poland and a radar in the Czech Republic, and 
there are those who believe that was to ``remove an irritant'' 
in U.S.-Russian relations. It is important for the 
Administration to clarify its missile defense plans not only 
for Congress, but also for the Russians.
    Lastly, we know that the threat is changing, and our 
missile defense plans must be flexible to those changes. A year 
ago, the Administration concluded that the long-range threat 
was not materializing as rapidly as once thought. However, 
since then, new details are emerging on both North Korean and 
Iran's long-range missile programs that should be grounds for 
the Administration to revisit the assumptions behind its policy 
changes.
    I am pleased with the restoration of some funds in the 
budget request after last year's $1.2 billion cut. It is a 
welcome indication that the Administration took note of 
concerns expressed by many of us that a top-line increase was 
necessary to accomplish all that was being asked of MDA: 
homeland missile defense, PAA, regional missile defense 
architectures, expanded inventory, increased testing, and 
continued investments in science and technology.
    I would like to thank our witnesses for their leadership 
and dedication and for being here today, and I look forward to 
your testimony.
    Mr. Langevin. Thank you. I thank the ranking member.
    [The prepared statement of Mr. Turner can be found in the 
Appendix on page 39.]
    Mr. Langevin. We received prepared testimony statements for 
each of our witnesses, and these will be entered into the 
record, without objection. So at this point if you could please 
summarize your key points so that we have plenty of time to ask 
questions and answers.
    With that, we will turn the floor over to Dr. Roberts.

STATEMENT OF DR. BRADLEY H. ROBERTS, DEPUTY ASSISTANT SECRETARY 
 OF DEFENSE FOR NUCLEAR AND MISSILE DEFENSE POLICY, OFFICE OF 
                    THE SECRETARY OF DEFENSE

    Dr. Roberts. Thank you, Chairman Langevin. Thank you, 
Ranking Member Turner. Thank you, members of the committee. I 
am pleased to have the opportunity to be here today to share 
our thinking and address your questions.
    My statement for the record touches on two main topics. The 
first is the contents of the Ballistic Missile Defense Review, 
just to review the main elements there, to make the point that 
that review proceeded in parallel with the Quadrennial Defense 
Review and the Nuclear Posture Review. These were intended to 
be integrated looks at the strategic landscape in front of us. 
You have reviewed the elements of the policy and strategy 
framework elaborated there; I will not do so.
    A key question you pose to us in the assignment for the 
first-ever Ballistic Missile Defense Review was this question 
about balance on future investments between defense of the 
homeland and defense of the region, and it was posed a bit as 
an either/or question. And, of course, as you know, the 
conclusion of the review is it is not an either/or question. We 
need a sound pathway forward for both the protection of the 
homeland and protection against regional threats and, because 
of the inherently unpredictable nature of the threat, the need 
to be well-hedged, to be able to accelerate capability 
deployment, and to be flexible with the capabilities we do 
deploy to meet unexpected requirements.
    The second main part of the prepared statement addresses 
your questions about implementation of the conclusions of the 
review. I think we are likely to have three areas of focus. One 
is on aligning programmatic requests with the policy 
objectives. And, as noted in General O'Reilly's testimony, we 
have requested increases for homeland defense, for regional 
defense, and for testing consistent with the results of the 
review.
    A second likely area of focus is the implementation of the 
missile defense in Europe and the Phased, Adaptive Approach. I 
perfectly agree with the proposition the committee must have 
confidence in the choices made and the logic behind them. It 
needs information in order to have that confidence. It does not 
have all of the information it needs to have that confidence, 
and part of my purpose in being here today is to better 
understand the pieces of the puzzle that are missing in order 
to help fill them in. I would give a more detailed answer to 
your question, but I will save that for the question and answer 
portion.
    I think the third focus in my remarks on implementation is 
about cooperation with Russia. General O'Reilly, Under 
Secretary Tauscher and others have engaged Russia to further 
explore areas of cooperation on the basis of shared interest 
and mutual benefit. We have an ambitious agenda there.
    And, with that, I will wrap up and look forward to your 
questions.
    Mr. Langevin. Thank you, Dr. Roberts.
    [The prepared statement of Dr. Roberts can be found in the 
Appendix on page 43.]
    Mr. Langevin. General O'Reilly, the floor is yours.

   STATEMENT OF LT. GEN. PATRICK J. O'REILLY, USA, DIRECTOR, 
       MISSILE DEFENSE AGENCY, U.S. DEPARTMENT OF DEFENSE

    General O'Reilly. Good afternoon, Chairman Langevin, 
Congressman Turner, and other distinguished members of the 
committee. It is an honor to testify before you today on the 
Missile Defense Agency's support to the Ballistic Missile 
Defense Review and our $8.4 billion fiscal year 2011 budget 
request to continue our mission to develop and field an 
integrated, layered Ballistic Missile Defense System to defend 
the United States, its deployed forces, allies, and friends 
against ballistic missiles of all ranges and in all phases of 
flight.
    This budget request reflects strategy and policies stated 
in the Ballistic Missile Defense Review report and the 
prioritized missile defense needs of our combatant commanders 
and services as stated in the latest U.S. Strategic Command's 
missile defense prioritized capabilities list.
    Under the oversight and direction of the Missile Defense 
Executive Board, chaired by the Under Secretary of Defense for 
Acquisition, Technology, and Logistics, the Missile Defense 
Agency proposes a fiscal year 2011 program that is balanced to 
achieve the six strategy and policy goals documented in the 
Ballistic Missile Defense Review report.
    First, defense of the homeland against limited attack. We 
continue to upgrade the Ground-Based Midcourse Defense System 
to increase reliability, survivability, and expand the ability 
to leverage new ballistic missile defense sensors, as well as 
test the GMD system to accredit our models and simulations. The 
purchase of five additional ground-based interceptors and 
limited life components for refurbishment--and our program is 
very extensive--will sustain our production capability until 
2016 and critical component manufacturing beyond 2020.
    Second, the defense against regional threats. We have 
increased our investment in regional assets and, by 2015, will 
procure 436 SM-3 IA and IB interceptors and 431 THAAD missiles, 
and have available 38 ballistic missile defense-capable ships.
    We are developing regional missile defense elements that 
can be adapted to unique circumstances of each combatant 
command region. For example, we determined, based on 
intelligence estimates, that our previous plan for the defense 
of Europe could simply be overwhelmed by the large number of 
Iranian medium-range ballistic missiles (MRBMs) today and 
intermediate-range ballistic missiles (IRBMs) in the near 
future. Therefore, we plan to deploy a larger number of 
interceptors in Europe in four phases as missile defense 
threats from the Middle East evolve.
    Third, prove that the missile defense system works. We have 
submitted a comprehensive, Integrated Master Test Plan signed 
by the Director of Operational Test and Evaluation, Dr. 
Gilmore, the services, the Operational Test Agencies, the 
Commander of the U.S. Strategic Command's Joint Functional 
Component Command for Integrated Missile Defense subcommand to 
ensure we extensively fly our missiles and test them before we 
buy them.
    The two largest challenges to executing the U.S. missile 
defense program is acquiring a cost-effective set of reliable 
targets and improving quality control. Over the past year, we 
have initiated steps to acquire a new set of targets of all 
ranges. Our new target acquisition strategy initiated in 2009 
procures targets and production lots to increase competition, 
quality control, reduce costs, and ensures the availability of 
backup targets starting in 2012.
    We have had many successes in improving our prime 
contractor and supplier quality assurance to meet the precise 
manufacturing standards required for missile defense 
components; however, not all companies have sufficiently 
improved. Until we complete planned competitions, including the 
greater use of firm, fixed-price contracts, we will have to 
motivate greater attention by senior industry management 
through intensive government inspections, low award fees, the 
issuance of cure notices, stopping the funding of new contract 
scope, and documenting inadequate quality control performance 
to influence future contract awards.
    Fourth, we are hedging against threat uncertainty. In 
accordance with warfighter priorities, we are focusing our 
future technologies in four areas: one, developing more 
accurate and faster tracking sensors on platforms to enable 
fire control solutions and intercepts earlier; two, developing 
enhanced command-and-control networks to link and rapidly fuse 
sensor data to handle large raid sizes of missile threats; 
three, developing a faster, more agile version of our SM-3 
interceptor to destroy long-range missiles early in flight; 
and, four, developing discrimination techniques to rapidly 
resolve reentry vehicles from other nearby objects. And we will 
continue to develop high-energy laser technologies.
    Fifth, develop new, fiscally sustainable capabilities over 
the long term. The Missile Defense Agency is complying with the 
Weapons Systems Acquisition Reform Act by establishing six 
baselines--cost, schedule, technical, test, contract, and 
operational--to plan, manage, and increase service and 
warfighter participation, and increasing emphasis on 
competition in all phases of programs' acquisition life cycle.
    Six, expand international missile defense cooperation. We 
are currently engaged in missile defense projects, studies, and 
analysis with over 20 countries, including Japan, Poland, the 
Czech Republic, Israel, Australia, United Kingdom, Germany, 
South Korea, NATO, United Arab Emirates, Bahrain, Saudi Arabia, 
and Kuwait. Additionally, Poland and Romania have agreed to 
host our Aegis Ashore sites, and we continue cooperative 
development of the SM-3 IIA interceptor with Japan.
    We also continue to support expert dialogue with the 
Russian Federation on missile defense cooperative efforts. 
Relative to the recently expired START Treaty, the New START 
Treaty actually reduces constraints on the development of the 
missile defense program. Our targets will no longer be subject 
to START constraints, which limited our use of air-to-surface 
and waterborne launches of targets which are essential for the 
cost-effective testing of missile defense interceptors against 
medium-range and intermediate-range ballistic missiles in the 
Pacific region.
    In conclusion, MDA is working with the combatant 
commanders, services and other Department of Defense (DOD) 
agencies, academia, industry, and international partners to 
address the challenges and difficulties of managing, 
developing, testing, fielding new military capabilities to 
deter the use of ballistic missiles and effectively destroy 
them once launched.
    Our 2011 budget funds the warfighters' near-term priorities 
while building the foundation of a layered defense system with 
our partners and friends that can provide an adaptive, cost-
effective strategy to protect our homelands and counter 
ballistic missile proliferation in the future.
    Thank you, Mr. Chairman. I request my written statement be 
submitted for the record, and I look forward to answering your 
questions.
    Mr. Langevin. General, thank you very much.
    [The prepared statement of General O'Reilly can be found in 
the Appendix on page 57.]
    Mr. Langevin. Dr. Gilmore, the floor is yours.

  STATEMENT OF HON. J. MICHAEL GILMORE, DIRECTOR, OPERATIONAL 
    TEST AND EVALUATION, OFFICE OF THE SECRETARY OF DEFENSE

    Dr. Gilmore. Mr. Chairman, Congressman Turner, Members of 
Congress, I will, as you requested, very briefly summarize my 
written statement.
    First of all, my characterization of demonstrated BMD 
performance is contained in the report submitted to Congress 
this past February. I characterized capability of ballistic 
missile defense systems using six levels of capability, with 
one being the lowest demonstrated level and six being the 
highest.
    Generally speaking, Aegis, THAAD, Patriot performance 
against short-range ballistic missiles (SRBMs), or capability 
against SRBMs, is rated at the highest level. There has been 
fairly extensive testing against those kinds of threats, and 
generally I characterize their performance at levels from four 
to six.
    With regard to Aegis Ground-Based Missile Defense and THAAD 
against medium-range ballistic missiles, intermediate-range 
missiles and intercontinental-range missiles, I generally 
characterize their performance at levels one to three or four 
because there has been lesser testing against those threats, 
and the capability levels that have actually been demonstrated 
tend to decrease pretty much in step with the increase in range 
of the potential threats.
    With regard to major events on testing, of course there was 
the demonstration of the Airborne Laser, which was a 
significant technical achievement. But also, there was a 
significant achievement in planning for tests, and General 
O'Reilly has already discussed the Integrated Master Test Plan 
which was developed and then revised. It is a rigorous plan for 
conducting tests and collecting the data needed to rigorously 
and independently verify, validate, and accredit the models 
that are going to be critical to assessing the operational 
effectiveness of missile defense, because we will never be able 
to do enough live flight tests to span the entire battle space 
that we are concerned about in demonstrating operational 
performance of the system.
    And then, finally, with regard to challenges moving 
forward, there are many challenges. These are some of the most 
complex tests that the Department of Defense attempts. There 
have been failures, particularly with regard to targets. And 
so, as General O'Reilly has already mentioned, target 
reliability and realism are particular challenges that the 
Agency is going to have to address in the future.
    Thank you. And I will be happy to answer your questions.
    [The prepared statement of Dr. Gilmore can be found in the 
Appendix on page 76.]
    Mr. Langevin. Gentlemen, thank you for your testimony. 
After myself and the ranking member ask questions, we will 
recognize members for five minutes in the order in which they 
arrived.
    Dr. Roberts, let me start with you, if I could. I 
understand that the Department thoroughly assessed the previous 
Administration's plan for missile defenses in Europe, the so-
called third-site plan, during the BMDR. Would you, for the 
subcommittee, summarize the key shortfalls of the previous 
Administration's European missile defense plan and the reasons 
for rejecting that approach? And could you also describe the 
key reasons that the President adopted the new Phased, Adaptive 
Approach to defending our allies and deployed forces in Europe?
    Dr. Roberts. I would be happy to have the opportunity to do 
so. Thank you.
    To begin at the beginning, we did not come, first and 
foremost, to the question of what to do about the third site. 
We came first and foremost to the questions, as scripted in the 
legislation, for the missile review, which was to begin with an 
assessment of the threat, how the threat had evolved, 
expectations about how it might yet evolve, and then to assess 
current capability vis-a-vis that threat globally.
    And so before we came to the question of what to do about 
the third site in Europe, we came to a view of the following 
landscape: That our posture--after a decade of investment and 
active capability development, our posture and protection of 
the homeland, relatively strong vis-a-vis the threat. If we had 
been seeking limited protection from the ICBM capabilities of 
North Korea and Iran, we have that today. We have 30 
interceptors on the ground that are operational, and that 
threat from their ICBMs does not exist today. We are in a 
strong posture.
    But inherent to our understanding or assessment of the 
threat was that it was unpredictable and, indeed, that we need 
to be more strongly hedged than we were for possible 
accelerated developments in the ICBM threat. So you saw, as a 
result of the review, a number of actions to strengthen our 
hedge for protection of the homeland.
    In the case of our regional defense posture, we were not so 
well-positioned vis-a-vis the threat. The threat had clearly 
been exploding. We had many capabilities reaching the end of 
the development pipeline but not yet reaching the field, and 
the clear need here is to increase--accelerate the deployment 
of capabilities to the warfighter in the regions while also 
being well-hedged against possible unexpected developments in 
the threat.
    That pointed to a particular set of capabilities; in other 
words, to seek capabilities that could be surgeable, adaptive, 
flexible to go where crisis required in time. That is the 
construct in which we came to our question then, the fourth, I 
think it was, on your list, of what to do about missile defense 
in Europe. And you have read our thinking about this. We have 
explained it in great length. I have tried to boil it down for 
myself into a few very short points.
    I think there are six criteria that guided our thinking on 
this topic. The first is for prompt protection. The pathway we 
were on with third site would have put initial capabilities on 
the ground in 2017 or 2018. We have a threat that exists today; 
we have capabilities we can put on the ground in 2011. Why 
wait?
    Second criterion: complete protection. Under the former 
approach we had not complete protect on of our allies. We have 
the means to protect all of our allies. There had been talk of 
protecting all of our allies, but no plans in place to do so. 
Why not protect all of our allies when we have the means to do 
so?
    Third criterion: effective protection. Why deploy a system 
that is capable against a salvo launch of only five missiles 
when we need to, and can, scale it up to deal with the expected 
increases in missile threats from the Middle East? We have the 
means to do that. Why shouldn't we do that?
    The fourth criterion: cost effectiveness. If we expect to 
have to scale up to meet the demands of a growing threat, why 
rely on ground-based interceptors at roughly $70 million apiece 
when we can acquire roughly comparable capabilities in the SM-
3s, but acquiring six or seven for the same price of one?
    Fifth criterion: cooperation with allies. We have the 
opportunity to work within the NATO framework. NATO's views of 
missile defense have evolved in recent years. They are eager to 
join us. We are trying to persuade them of the virtue of 
declaring this territorial defense as a NATO mission. We see 
positive indicators that they are interested in so doing. Why 
not work with allies to share these benefits and burdens?
    And, lastly, flexibility. Why rely on a system that 
involves fixed assets that can't be moved when we know we are 
not going to have enough to deal with the threat globally, and 
we should have some ability to relocate and surge capabilities 
while they remain scarce in our arsenal?
    So beginning with our view of the threat environment, 
beginning, then, with our view of how to balance our future 
investments across this homeland defense and regional problem 
space, we looked at the third-site approach to missile defense 
in Europe and found it wanting on these criteria. So the 
President chose an approach that is more flexible, more 
adaptive, more cost-effective, enables more international 
cooperation, more sharing of burden.
    That would be the five-minute answer, I think, to the 
question.
    Mr. Langevin. Thank you, Dr. Roberts.
    General O'Reilly, yesterday the subcommittee received a 
briefing on MDA's Integrated Master Test Plan conducted with 
the Office of Testing and Evaluation.
    First of all, I really want to commend you for the 
excellent job that MDA and Operational Test and Evaluation 
(OT&E) have done, and especially General O'Reilly for bringing 
high quality oversight and a serious testing regime to our 
missile defense programs. Well done on that front.
    Unfortunately, MDA's testing progress has been hindered by 
target missile failures such as with the THAAD intercept test 
in December. And I am sure that even with that failure, though, 
we have learned a great deal. You can certainly touch on some 
of those things that we have learned. But in particular, what 
was the additional cost incurred from the target failures, and 
what measures is MDA taking with its contractors to ensure high 
quality testing is accomplished on schedule?
    General O'Reilly. Sir, unfortunately the THAAD test in 
December we did not learn very much. The target itself was 
about $15 million. It was a first-time use of that particular 
configuration, so another 15 was invested. We spent around $12 
million for the range and the test preparations. And then there 
is the impact on the program that wasn't able to be tested, the 
THAAD program, where we had the delay in restructure 
activities. Sir, it was in excess of $50 million, perhaps even 
$60 million, because of the quality control errors we found in 
the installation of the target into the aircraft. So that was a 
significant setback to the program.
    Because of that, I then made--we had a failure review 
board, and that failure team was very experienced from both 
industry and government, and came back and found that there was 
a systemic problem with the quality control in the areas of 
that target. And, therefore, I made the decision not to use 
air-launched targets until we have reset with our contractors, 
either expanded the number of contractors which we use so we 
can induce competition, which I believe is part of the solution 
to quality control issues.
    It is not that these were poorly-built systems. The 
precision required of missile defense systems is very high, and 
it is achievable, but it requires a specific discipline and 
experience base and investment in testing that--in-plant 
testing that is required. And so to motivate that, I have 
delayed any new scope to that particular company so that--until 
they satisfy that they have made corrective actions in 
management structure and in approaches to targets and so forth. 
And also, at the same time, I have taken the planned work that 
I was going to use with that company in 2012 and put that scope 
on another contract that I have with another company and asked 
that second company to develop an air launch capability so that 
we have true competition, to emphasize the fact that it is an 
absolute requirement in the missile defense business that you 
have the highest repeatable quality. It is a condition on which 
our contracts should be set.
    Also, we have--as I said in my statement, we have other 
competitions now that we have instituted so that we buy targets 
in lots which allow themselves to have quality control issues 
applied or techniques and procedures on a lot of a buy, rather 
than buying them individually, which we were in the past, which 
was much more expensive.
    Mr. Langevin. Very good, General. Thank you very much.
    And finally, Dr. Gilmore, can you describe the key tests 
and criteria that you believe would have to be met before the 
Department can make an informed deployment decision for the 
first phase of the European PAA Missile Defense System?
    Dr. Gilmore. The testing that is going to be possible 
between now and the fourth quarter of fiscal year 2011 is 
driven, in large part, by the availability of targets. But the 
revised IMTP incorporates four flight tests, two THAAD tests, 
and then also an operational test involving both THAAD and 
Aegis.
    The Aegis test, which is called Flight Test Mission (FTM) 
15, I think it is in the third quarter of fiscal year 2011, 
will be key because it will be the first test of an Aegis SM-3 
Block IA missile and the Aegis fire control system and radar, 
as well as testing out the launch capability that might be 
necessary to engage an MRBM- or IRBM-class threat fired from 
Iran. So that test, that operational test, will be key. Then, 
of course, there will be additional tests that take place after 
the end of fiscal year 2011, leading up to another large 
operational test event in fiscal year 2012, which will have a 
number of missiles simultaneously in flight that will have to 
be intercepted and that will be crossing multiple sensors and 
will challenge the battle management command-and-control system 
to sort all of that information out, provide firing solutions 
to the various platforms.
    So those are the tests that are scheduled. To some extent 
the number of tests is limited by the number of targets, but 
conducting those tests will be key, and the results will be key 
to informing us on the performance of PAA Phase 1.
    Mr. Langevin. Thank you, Dr. Gilmore.
    I want to thank you, gentlemen.
    And now turning to--the ranking member is recognized.
    Mr. Turner. Dr. Roberts, one of the problems that we have 
in this whole missile defense discussion and in trying to get 
bipartisan support is really an issue of credibility. And I am 
very, very concerned by the question that our chair asked and 
your response. And I want to go through the elements of what 
you gave us as your response because there is an essential, 
fundamental misrepresentation that is made within your answer, 
and that is assuming that the third site, Poland and Czech 
Republic sites, had to be scrapped so that the PAA could be 
adapted.
    When you compare a system of Aegis ships and SM-3s to a 
system of ground-based interceptors and present it as a false 
choice, that one had to be scrapped in order for the pursuit of 
others, when, I mean, everyone in this room who has put any 
effort into this issue understands that that is not a 
necessity, we start a problem of having a difference of being 
able to evaluate the information that you are providing us.
    Now, it may be that, when we are finally done with the PAA 
and it is provided to us, we might have enough information to 
see that it has benefits, too. But there are a number of things 
in comparing them that are just not very accurate. You said, 
first, we wanted to do something prompt. We can do it by 2011. 
Why wait? But you know you are not doing the same thing and I 
know you are not doing the same thing, so why don't we just--
you know, just say that?
    When you said the ground-based interceptors are not going 
to be available until 2017 or 2018, we all know, of course, 
that the original schedule was they would have been completed 
by 2013. But I will give you--I will give you the 2017 and the 
2018. Even if I give it to you, the PAA doesn't provide the 
same level of protection to the United States until 2020 by 
your plan, not 2011. So when you say ``prompt'' and ``why 
wait,'' mainland United States is not protected by that system, 
which the ground-based system would have provided in Poland and 
Czech Republic.
    If you are going to do a comparison, apples to apples, that 
system versus the other system, you are comparing 2017 and 
2018, not 2011. Now, I know you say, ``Oh, well, we have the 30 
other interceptors that provide us our complete coverage.'' Of 
course, there were going to be 44 until the Administration cut 
them. And I don't think that the threat itself represents 
something that we all believe is diminishing, but yet the 
interceptors that were planned by the Administration are 
diminishing.
    Then you go on to say that it is not going to provide--it 
will not have provided complete protection to our allies. Well, 
neither are you by 2011. I mean, if you look at the coverage in 
the plan and how it has unfolded and what has happened with 
London and Paris, I don't think you can provide information 
saying by 2011 we have done it promptly, we now protect our 
allies.
    And the false choice issue is the one that really falls in 
your other points of effectiveness, five launchers versus the 
shift that we are having in the number of missiles there. It is 
not necessary that one be scrapped in order to pursue another, 
which was all part, before--part of the smorgasbord of the 
availability of technology and assets that we were all 
pursuing. And the same issue with the cost effective.
    And then cooperation with the allies. The one that I really 
find amazing there is that--and mind you, I am not a big fan of 
how the Poland and Czech Republic sites were handled with 
respect to our allies. But you are aware that, of course, NATO 
did endorse that plan at Bucharest, and we are all aware that 
Romania was an announcement that occurred without NATO 
participation. It is one of those ones where, after the fact, 
this Administration, almost in the same vein as we have Poland 
and the Czech Republic, made an announcement that then we all 
have to fall back on trying to clean up how that announcement 
was handled.
    And the flexibility of fixed or moved. Again, this was 
supposed to be a smorgasbord. This was not supposed to be a 
one-off exclusive, that once we do Poland and Czech Republic, 
we are stuck. That is why MDA had so many things that we were 
developing so, in fact, we could have this multiple use.
    But the thing that concerns me, which I would really 
appreciate your thoughts on, considering your position, is that 
the concern--especially when we get to the issue of the 
credibility and the dialogue of--you know, many people were 
concerned that the Polish and Czech Republic sites were 
compromised by this Administration as a result of their 
concession to Russia. No secret to anybody that Russia didn't 
like this. The President announces his intention to reset. Even 
the letter went off, I believe, if I am correct, that said to 
Russia: We would consider our view of missile defense based 
upon your participation and assistance with Iran. I think the 
Poles and the Czechs were very taken by surprise with how the 
rug was pulled underneath them and the manner in which that was 
done. They were walked out onto the world stage and then not 
really given the appropriate attention as this was diminished.
    But the START agreement. The START agreement includes the 
preamble language that recognizes the relationship between the 
strategic and the defensive, and Russia has made statements 
that they might consider withdrawing from START if the United 
States vigorously pursues missile defense.
    The Phased, Adaptive Approach is something this 
Administration has announced. We don't have all the details, 
but it is something, certainly, that even Secretary Tauscher 
says that its effect is on the Web. You can look on the 
Internet and see what the effect is.
    Is the Administration confident that the Phased, Adaptive 
Approach doesn't already violate what the Russians' intent is 
in saying they will withdraw from START if we vigorously pursue 
missile defense? And this new restart relationship, has the 
Administration received assurances that the Phased, Adaptive 
Approach is not a violation of the concept of the preamble of 
START?
    Dr. Roberts. Well, it is clear we are going to disagree on 
the dichotomy of choices. I didn't misrepresent to you the 
choice made by the Secretary, which was: Go forward with third 
site, or go forward with phased, adaptive. This is the 
unanimous recommendation of the Secretary, the Chairman, and 
the military leadership to the President, was on the basis of 
this choice. It wasn't a false dichotomy.
    The constraints in New START: our position is very clear 
that we see no development in our missile defense posture that 
is threatening to the viability of Russia's strategic 
deterrent. Russia is not--Russian experts are not particularly 
happy with Phase 4 of PAA because they don't fully understand 
what Phase 4 entails and what it might imply in the way of 
capability against Russia. Our view is that, from a technical 
perspective, there is no capability in Phase 4 that could be 
jeopardizing to their deterrent. It is a simple matter of 
physics and geography.
    So they have made it clear throughout the negotiating 
process that they are unhappy about developments in the U.S. 
strategic posture of multiple kinds--the development of 
ballistic missile defenses, the development of non-nuclear 
strike capabilities. But their bottom line has been that they 
will support and implement New START, so long as we don't do 
something we have no intention of doing, which is 
jeopardizing--this is a limited defense of the homeland, and 
there is nothing in the PAA and Europe that can be effective 
against their strategic deterrent.
    Mr. Turner. And thank you for that clarification. And I 
need to ask you the question again with the additional way that 
you framed it.
    The concern is--you just said that there are some things in 
Phase 4 that they may have objection with. The concern is, is 
that, has the Administration, when it began the discussion--the 
Phased, Adaptive Approach was a policy the Administration was 
already pursuing. START was something that the Administration 
was already pursuing. The Administration concedes to language 
being in START that includes missile defense.
    Has the Administration received assurances from Russia that 
Phase 4 of the Phased, Adaptive Approach doesn't violate the 
now, as Secretary Tauscher points out, unilateral statements 
that Russia is making with respect to their interpretation of 
the language in START? Because--and the concern is this, is 
that because we know that Russia objected to the Poland and 
Czech Republic sites, and now this Administration are not 
pursuing those, the concern is, is if the Administration is 
faced with Russia objecting, pursuant to START, to Phase 4, 
will it weaken the Administration's support for Phase 4 as it 
did the Administration's commitment to the Poland and Czech 
site?
    Dr. Roberts. The inference of your question was that 
Russian objections to the third site were a driving factor in 
the decision. They were not. I have made the case----
    Mr. Turner. And then the question? The question being, is 
there that assurance?
    Dr. Roberts. Is there an Administration assurance to 
Russia?
    Mr. Turner. From Russia. Has Russia communicated with the 
Administration that Phase 4 is not that violation that Russia 
believes would occur to its strategic deterrent by the----
    Dr. Roberts. I have no basis.
    Mr. Turner. The Administration has not addressed that with 
Russia, then?
    Dr. Roberts. To my knowledge, no.
    Mr. Turner. Okay. Thanks.
    General O'Reilly, two-stage ground-based interceptor. The 
Ballistic Missile Defense Review states that it will continue 
to be developed, and we assessed as a hedge strategy. I believe 
that is correct; is it not? Could you please describe to me 
what that hedge strategy is? I mean, a hedge against what? A 
hedge for what? What would the expectation be in looking at the 
ground-based interceptor as a hedge?
    General O'Reilly. Sir, we are going to continue to develop 
the two-stage ground-based interceptor. In fact, we will be 
flight testing it in June for the first time. That capability, 
what it gives us if we deploy, it would be additional time and 
additional opportunities to defend the United States from 
locations such as Iran or North Korea.
    So, specifically, when you have a three-stage missile, it 
burns for over four minutes, and there is a set amount of time 
it takes before it is ready for an intercept. A two-stage is 
ready much earlier; and, therefore, if you had a failed 
intercept from a three-stage, you have another opportunity with 
a two-stage.
    Mr. Turner. I mean, currently there is no plans for its 
deployment; is that correct?
    General O'Reilly. Sir, we currently have no request from 
the combatant commanders for that capability to deploy it in 
that manner.
    Mr. Turner. So the word ``hedge'' is the one I keep 
stumbling over. What scenario--since that is in the Missile 
Defense Review, it is a policy statement. What are the 
circumstances under which that it would satisfy as a hedge? I 
am assuming that means in some form of deployment.
    General O'Reilly. Yes, sir. We can actually--with the 
utilization of a two-stage, in some geometries, we have the 
ability to better utilize our inventory of GBIs. In other 
words, one shoot doctrine is to fire multiple GBIs at one 
target. With the capability of having a later intercept 
opportunity, then you can actually launch one, determine 
whether it is successful, launch a second. And in this case, 
you would have an additional shot opportunity.
    So if what we thought was a larger number of ICBMs than 
what we see today, another option would be to add additional 
two-stage--or to in-place two-stage GBIs so that, in fact, you 
have a larger number of missiles you can engage with the 30 
that we are deploying.
    Mr. Turner. Airborne Laser Test Bed. People are very 
concerned about the amount of cuts that has occurred as it goes 
from two to the test bed: 2009, $384 million; $182 million in 
2010; $98.7 million for this upcoming year. Could you please 
describe to us--and you just gave us a classified briefing 
previously. Can you describe to us now, in an open setting, how 
those budgetary dollars will support the Airborne Laser as a 
test bed and as a research project?
    And one of the things that would be really helpful, I 
think, because I don't think there has been enough horn 
blowing, is if you could do a commercial right now for how 
great the test was and how accomplished--what an accomplishment 
it is that the Airborne Laser accomplished what it did in its 
test.
    General O'Reilly. Sir, twice this year now we have engaged, 
for the first time, the destruction of a ballistic missile 
defense early in its flight using a laser onboard an aircraft. 
This is--the technology of just producing a laser and the fire 
control system is a watershed event for military capability. 
But the details of how this system worked, there was a litany 
of scientific achievements which were accomplished, and they 
have been accomplished over the last two years in a repeated 
fashion with the ABL to give us confidence that we certainly 
understand how to generate this type of laser energy and how to 
impart it on a target in a very, very quick fashion. We 
destroyed the missile in the second launch at half the time 
that we had calculated. So this also indicates we have a lot to 
learn from this in the area of beam propagation and in the 
lethality mechanisms. It is a very, very promising way to 
destroy a large number of ballistic missiles launched in a 
short period of time.
    However, we do recognize that there is additional 
engineering and additional research involved, number one, to 
validate our models. And, number two, this aircraft, with the 
fantastic performance it had, was actually based on designs 
that were over a decade old. And we have technologies today 
where we have made progress in our laboratories over the last 
10 years that indicate that there is even a greater capability 
with future airborne systems. And the 747-based Airborne Laser 
is a very good platform we have already invested in. It has 
multiple--it has the capacity to carry more than one laser 
system, so that it is a very good research platform, and that 
is what we have intended it to do.
    The budget last year was larger than this year's, the 
fiscal year 2010 request, because we were still completing the 
construction of the optical beam line. We have completed that 
work. And now, when you are focusing on the research, we 
believe we have an adequate budget in which to operate the 
aircraft and to complete the large amount of unknown scientific 
exploration that is necessary to occur for us to have a very 
effective military system.
    Mr. Turner. One more question, General. The Aegis SM-3. The 
bulk of the funding comes in out-years. It creates a near-term 
production gap and inefficiencies, perhaps, for industries. An 
example shortfall is the Aegis SM-3 interceptor. The 
Administration wants an inventory of 436 interceptors by 2015, 
yet it is only buying 8 interceptors this year and, looking in 
the forward years, MDA plans to buy 66 in fiscal year 2012; 72, 
I guess, in fiscal year 2013. Is there a better way to manage 
this ramp-up, and do you have concerns as to how you are going 
to get to the inventory of 436?
    General O'Reilly. Sir, first of all, the SM-3 IB, the 
newest version, has the same ordnance stack that the current 
version has. It has a new seeker, a much more capable seeker 
that is the particular distinguishing characteristic of this 
missile. So the production gap which we have is part of a large 
family of missiles. So we will continue to produce the ordnance 
stack that we have to propel the SM-3 IB just like we do the 
IA.
    In the case of the IB, though, again, it goes back to the 
Ballistic Missile Defense Review, the tenet that we will fly 
first before we go into production. Therefore, we have a 
series--working with the operational test communities and the 
other test agencies--a series of agreed-upon tests that must 
occur before I will go to the Under Secretary of Defense for 
Acquisition, Logistics, and Technology and request a production 
decision.
    I have procured 30 missiles for research and development at 
this time, and so those 30 will more than adequately 
demonstrate the capability and validate the new production 
lines for the new kill vehicle. But to go beyond that, we will 
need to complete the testing which we have planned for the next 
year and a half, and that does delay the start of a full-rate 
production.
    Mr. Turner. Thank you.
    Thank you, Mr. Chairman.
    Mr. Langevin. I thank the ranking member.
    Before I go to Mr. Larsen, on the third site, since we are 
talking about some of the specifics in your analysis of 
alternatives, could you just for the committee talk about the 
cost involved of the fiscal structure for erecting the sites in 
both Poland and the Czech Republic?
    Dr. Roberts. I cannot. I am happy to take the question for 
the record.
    [The information referred to was not available at the time 
of printing.]
    General O'Reilly. On the order of--this is preliminary 
work, sir, as we are working through our cost estimates and the 
design of the first Aegis Ashore site. Was that the question?
    Mr. Langevin. The third site.
    General O'Reilly. The budget request that we had made last 
year was based on a $4.2 billion cost for the third site.
    Mr. Langevin. For a third site. And that did not include 
the cost of the interceptors, right?
    General O'Reilly. It did include the cost of the 
interceptors of the missile field in Poland and the radar in 
the Czech Republic, the battle command and control, and the 
initial startup.
    Mr. Langevin. So how many of the GBIs?
    General O'Reilly. Ten were in there, sir, at a cost of 
about $70 million apiece.
    Mr. Langevin. It is my understanding if there is an 
incoming target, you would fire not just one at the target, you 
would fire multiple.
    General O'Reilly. To achieve our probabilities of 
protection we try to achieve, our typical shot doctrine, and in 
a very constrained environment like in Europe, the region, we 
would need to salvo two for every one. Our preferred approach 
is to launch one missile, determine if there is an intercept, 
and, if you have enough time, launch a second missile. But in 
the case of Europe, because of the closing velocities in which 
we are flying it and the size of the theatre, we would need to 
salvo two, as a minimum, for every missile coming in.
    Mr. Langevin. So $140 million for the two missiles being 
fired versus $10 million to $15 million a shot for the SM-3.
    General O'Reilly. Yes, sir.
    Mr. Turner. Mr. Chairman, how do those numbers compare to 
Alaska? Because that would be the comparable. It is not really 
the SM; it is really GBI to GBI, because as you were not 
disputing in the testimony, they really aren't shot at 
comparable targets. It really would be Alaska; would it not? I 
think that is what Dr. Roberts was indicating, that would have 
the ability to protect the mainland.
    Are the costs significantly different between Poland and 
Alaska?
    General O'Reilly. The interceptors would be the same cost. 
It is the same design of the intercept. The operation is a 
little more expensive because it is a remote site. We have 
missile assembly buildings and other infrastructure in Alaska 
that we wouldn't have there. The missile field itself would be 
slightly less than what we spent in Alaska, because the first 
time you do a construction, you develop it, it is more 
expensive, and we have a learning curve.
    Mr. Turner. Thank you.
    Mr. Langevin. Very good. Thank you, General O'Reilly.
    The chair now recognizes Mr. Larsen for five minutes.
    Mr. Larsen. Thank you.
    General O'Reilly, the PAA has been presented as a missile 
defense architecture, and it is focused mainly on our allies in 
Europe. I think in your testimony you discussed how this 
approach might be applied to other regions. Can you get into a 
little more detail for us on that?
    General O'Reilly. Yes, sir. There is very attractive 
attributes of the Phased, Adaptive Approach. First of all, with 
our investments and our growth of capability of the Aegis 
system, you have a mobile system that you can surge into 
certain regions. But what it distinguishes in the Phased, 
Adaptive Approach as we looked at the different potential 
weapons systems that could provide defense against missiles, 
the idea of taking the Aegis system and putting it on the land, 
which we already test parts of the Aegis system at White Sands, 
New Mexico, and at other sites on the east coast. So this is 
not an infeasible capability. We would make it to have a 
military capability of hardening it and so forth, but that 
capability would allow us to place in remote sites, high-value 
areas of the world where we have forward bases and so forth, 
you effectively have a permanent defense equivalent to what 
Aegis has.
    We already have the Aegis Logistic System and Training Base 
that has already been established. It allows us to manage a 
larger pool of interceptors for both land-based and sea-based 
use. So the operational commanders have more flexibility.
    And again, for remote sites around the world, it does give 
you defense. The defense of the first generation is on the 
order of 1,000 kilometers protected area. So it is a 
significant capability, and it can be removed in the future if 
it needed to, and what would remain behind would just be the 
concrete. We have said in the past that to relocate it would be 
on the order of about four months.
    Mr. Larsen. Thank you very much for getting into that. I 
think, again, getting to the PAA approach, the Phased, Adaptive 
Approach, does provide a little bit more flexibility for us not 
just in the European theatre, but in other areas that you have 
noted.
    Dr. Gilmore, a few more questions about testing. First, 
with regard to the Airborne Laser Test Bed and the recent 
successful tests, in your testimony--I think it is your 
testimony--you have outlined some of the issues, though, with 
the test. For instance, the detection and tracking system 
wasn't available for the test; therefore, the aircrew utilized 
the aircraft's Wide Area Surveillance System for knowledge of 
the threat missile launch location, timing, and aim point.
    I guess, in the end, you said, ``If the Department should 
determine at a future time that it is appropriate to develop 
and field an Airborne Laser system, an extensive program of 
additional developmental testing culminating in realistic 
operational testing would be needed.'' It is a short way of 
saying it is not ready. But are there things in the testing 
regimen that would get us closer to that or not?
    Dr. Gilmore. Well, you would have to do additional tests, 
but also, as pointed out in my testimony, and I also in January 
submitted a report on the Airborne Laser to the Congress. I was 
required by law to assess the operational effectiveness of the 
Airborne Laser, and the thrust of the report was I can't do 
that at this point because there has been insufficient testing. 
But also, the aircraft, as it exists, is a test bed; it is not 
an operational--doesn't compose an operational combat 
capability for some of the reasons that you just mentioned that 
were in my testimony.
    You would also, in addition to additional capabilities on 
the aircraft, the additional sensors that would enable you to 
detect in real time and track large numbers of threat missiles 
that you might encounter. One of the principal things you would 
also need is, in all likelihood, a higher-powered laser to 
stand off against modern air defenses, because you can't assume 
the aircraft can penetrate in the airspace and would be able to 
survive if it did that. So you would have to demonstrate the 
capability to engage missiles at substantially larger ranges 
than we have done at this point.
    As General O'Reilly mentioned, this was a real technical 
achievement, but it was necessary--but not sufficient--to the 
demonstration of a combat capability. You would also have to 
demonstrate that the system had high reliability. There were 
some problems during the tests. You have to have a system with 
high reliability because you don't know when the threat will 
launch. You can't have the system go down. You would have to 
have at least two aircraft per orbit, because when the aircraft 
are turning, sometimes they can be in a position where they 
couldn't engage a threat. So the analysis that I have seen done 
would indicate you would need at least two aircraft per orbit 
in order to assure you could intercept launches from a 
particular area you were interested in intercepting launches.
    To have those two aircraft on orbit continuously, which you 
would need to do because you don't want to give the enemy a 
choice of when to fire their missiles, because they might well 
see when an aircraft had to leave an orbit, you would need 
another three to five aircraft per orbit. You might need only 
one or two orbits in the case of North Korea, but in the case 
of a larger country like Iran, there would be certain areas in 
Iran from which launches could occur that probably couldn't be 
intercepted by any number of orbits of Airborne Lasers if they 
have to stand off outside the border of the country.
    So there are all those kind of issues that would have to be 
addressed in adding capability to the aircraft, perhaps, for 
example, as General O'Reilly notes, taking advantage of modern 
technology to incorporate a higher-power laser that, in fact, 
would have effectiveness at larger ranges, as well as all these 
other things I have mentioned that would have to be done before 
you had an operational combat capability.
    Mr. Larsen. Thank you.
    Mr. Langevin. Mr. Franks is now recognized for five 
minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Thank all of you for being here.
    Mr. Chairman, I have several questions, very limited time 
here, so I can't help but express some perspective on some 
comments by our ranking member Mr. Turner related to your 
testimony, Dr. Roberts. I think that I just want to be on 
record as suggesting there was indeed a false choice between 
two cases here. The notion that we could not have continued 
forth with the third site and that that foreclosed anything 
else we were doing is not something that reasonable people can 
embrace. And to suggest that our allies were well served by 
that, given the reaction by the Polish representatives that 
came after that announcement, and some of the people from the 
Czech Republic, they felt simply betrayed. So I don't know how 
we have served those allies' interests.
    I suppose my biggest concern is the discussion related to 
the timing. I am fully aware that we have some raid issues 
related to only 10 interceptors. But whatever capability they 
represented will be nonexistent, perhaps in a critical time in 
Iran's calculus as they move forward with not only their 
missile systems but, potentially, their nuclear system. I think 
that that issue is, potentially, going to saturate the 
discussion of this committee in the future because of the 
seriousness of it. Any time or opportunities or additional 
margin that we could have purchased with the third site in 
Europe could prove to be something that we would regret not 
having in the near future.
    So, with that, I just wanted to be on record with that, and 
I want to try to direct some questions to General O'Reilly in 
the short time that I have.
    General, thank you for your service to this country. People 
like you carry freedom on your backs, and the rest of us just 
talk about it.
    Recent news from the Middle East region has been troubling. 
I have already mentioned that the Iranian situation, I believe, 
continues to be a great concern to us, given their enrichment 
of uranium and their active space and missile development and 
testing program. There are varying estimates on when Iran will 
develop a nuclear weapon. I am told by the Secretary of Defense 
that is probably not anything to worry about. It could be one 
to three years, at least. I am not sure that that is something 
I would celebrate, that it is only two or three years away. In 
any case, I know that the Secretary of Defense is focused on 
that as much as he can be, and I think all of us should be.
    Just yesterday there were news items describing that Syria 
provided Scud missiles to Hezbollah. These Scud missiles would 
be able to range much, if not all of Israel, with better 
accuracy than the Katyusha rockets and the Qassam rockets that 
have been almost a ubiquitous part of Israel's life.
    Potential adversaries continue to develop and deploy larger 
numbers of increasingly advanced ballistic missiles, and they 
are also exercising concepts of operations involving larger 
raid sizes and multiple launch platforms. I guess my question 
to you, sir, is: How is the Missile Defense Agency's technology 
development program aligned to meet the ballistic missile 
threat 5 years from now, or even 10 years from now, given these 
concerns?
    General O'Reilly. Thank you, sir. First of all, we need to 
have a greater effectivity of each one of the missiles we 
launch. So our investment program in advanced technologies is 
designed to have better use of our sensors so we can track 
missiles early in their flight and pass that information to an 
interceptor and intercept missiles earlier. When we have large 
raids of missiles that, as you describe, sir, the threat is 
growing, I don't know of a technical reason why we won't be 
facing large raid sizes in the future of increasingly longer-
range threats. We need to defeat those missiles early in 
flight, and key to that is having sensor systems and using all 
of our possible sensors--including unattended air vehicles--
and, from space, have the ability to track and launch 
interceptors sooner.
    So we have a significant investment in that area. 
Associated with that is a very rapid command-and-control system 
which could then pass that information so we could, in fact, 
have intercepts earlier, as soon as immediately after a boost. 
So that is one investment area we are making, and we are 
working on that very quickly.
    In 2012, we have several demonstrations of intercepting 
missiles early in flight from an Aegis ship by using one 
unattended air vehicle and a second test which we will be 
tracking from space. So that capability will be available based 
on the success of the work we are doing right now, and that 
test to prove we have that, so that by the middle of this 
decade we will have an ability to start destroying missiles 
early in flight.
    I have asked for the Defense Science Board to do an 
independent assessment of what I just said, and they have 
agreed to that, the Secretary of Defense has agreed to that, 
and they will be studying that this year for an independent 
report out in the late summer on, in fact, the capability and 
when we will have this early intercept capability, as I just 
stated.
    Mr. Franks. Thank you, General.
    Thank you, Mr. Chairman.
    Mr. Langevin. Thank you.
    Mr. Heinrich is now recognized for five minutes.
    Mr. Heinrich. Thank you, Chairman.
    General O'Reilly, I wanted to ask you that if North Korea 
or Iran were to develop intercontinental-range ballistic 
missiles capable of delivering a nuclear weapon to our homeland 
more quickly than what we currently anticipate, what options 
does MDA have for responding to this kind of threat?
    General O'Reilly. First of all, sir, today, as we stated, 
we have 30 in-place--or will by the end of this year--we will 
have 30 in-place GBI interceptors. In the case of North Korea, 
looking at the geometries of the tests we have already 
conducted and the geometries of a launch coming out of North 
Korea and interceptors coming out of Alaska, we have 
demonstrated that capability to intercept that.
    I believe the question, though, would be what we could do 
to enhance our Ground-Based Midcourse Defense System is, again, 
structuring our sensor system and linking it together in a 
way--and we are doing this, and we proved it in our flight 
tests in 2008--the ability to have very, very accurate sensor 
data that we could launch and improve the performance of each 
GBI that we launch so that we could do intercepts as far out 
and as early as possible. And if we miss, then we would launch 
second interceptors. That, in effect, would give us greater 
capability with the 30 that we will have currently in place 
this year.
    Mr. Heinrich. Okay. I am going to shift gears real quick to 
the Airborne Laser Test Bed. And, once again, congratulations 
for the very successful test that we saw recently. Certainly, I 
am looking forward to the result of some of the upcoming 
activities.
    Given what we have learned from the Airborne Laser program, 
I wanted to ask if you foresee any near- or medium-term 
applications for directed energy weapons in the ballistic 
missile defense architecture.
    General O'Reilly. First of all, sir, I appreciate your 
recognition. I would like to recognize the work of the folks 
from industry and government--in this case, for many years--of 
what they have accomplished. There were a lot of experts that 
said couldn't be, and they had the persistence. I am very 
interested in maintaining that knowledge base and those experts 
that this country has that are unique to us so that we can, in 
fact, continue on directed energy research. I think that is 
extremely important.
    For near-term applications, the concern as we have in 
missile defense is that we need to be--with the current powers, 
we believe we need to be close enough in order to have an 
effective range that, in fact, puts us at a disadvantage with 
what we see as surface-to-air missiles. And so, therefore, we 
are actively involved in this next generation of lasers and 
looking forward and funding work so that we can, in fact, 
significantly increase the power that that aircraft has in an 
actual smaller package.
    Mr. Heinrich. Speaking of maintaining that knowledge, how 
many--if you look at the Administration's current budget, how 
many experiments would that fund over the course of the fiscal 
year?
    General O'Reilly. Sir, there is a study ongoing under the 
Office of the Secretary of Defense that is looking at all of 
our directed energy programs.
    Mr. Heinrich. This is the one that will be due out in June?
    General O'Reilly. Yes, sir. In that study it is a broad 
view of all of our work that is going on. And part of that is 
looking at the testing aspect; what needs to be tested. In the 
area of ABL, I would say first is beam propagation; second 
would be lethality mechanisms; and third would be other ways to 
make it more difficult for us to use a laser to destroy a 
missile.
    In that regard, if we go down this path of testing that I 
expect to, to answer your question, would be 10 tests over the 
next year with smaller sounding rockets, because we don't have 
to do the more expensive, larger tests in order to gain 
valuable data into the areas that I just discussed.
    Mr. Heinrich. The current numbers would support 10 tests 
over the course of the next year?
    General O'Reilly. Against the type of target that I just 
talked about. Against the larger target sets, which we have 
been doing in the past and will do next month, no, it wouldn't.
    Mr. Heinrich. Okay. I will yield back the rest of my time, 
Mr. Chair.
    Mr. Langevin. Thank the gentleman.
    Mr. Spratt is now recognized for five minutes.
    Mr. Spratt. Sorry to be late, but I had the benefit of a 
briefing a few days ago. Having followed this program a long 
time, I have the feeling it has come to fruition. I commend you 
all for making this happen. As we scrape up scarce resources to 
apply them to the best outcome, there are some systems we have 
supported for a long time in alliance with our allies--the 
Arrow and the Medium Extended Air Defense System (MEADS). What 
can those systems do that we couldn't otherwise accomplish 
using the SM-3 or Aegis Ashore, the THAAD, the PAC-3, the 
Patriot; our existing systems? Couldn't they perform the 
mission more or less as well as the two systems we are 
developing--the MEADS system? And I know MEADS mobility is an 
issue. Is it necessary to push forward with those systems at 
the cost of these other systems?
    General O'Reilly. Sir, the MEADS system is a low-altitude 
interceptor, and its purpose is to intercept cruise missiles, 
air breathers, unattended air vehicles, aircraft, and low-
altitude missile defenses similar to what a Patriot would do. 
That capability is what we call a lower-tier capability. I 
developed the upper-tier, and what we focused on for defense of 
Europe and the discussion we have had are upper-tier systems.
    Mr. Spratt. The Patriot can't take on that mission, then, 
because of the altitude?
    General O'Reilly. It is a very similar mission to the 
MEADS, sir. The THAAD program is much higher altitude of 
intercept. MEADS has--in its objectives has much greater 
mobility than what a Patriot system would have, as you pointed 
out, sir. That is the most significant difference between the 
two. And for the Arrow system, sir, it is a fixed system, but 
it actually intercepts higher than the altitude of a Patriot 
and literally intercepts up into outer space. So it operates in 
a different regime than what a Patriot system would be. And 
Arrow would have an opportunity for at least one intercept, 
maybe more, before Patriot would then engage it.
    Mr. Spratt. So they are worth the buy.
    General O'Reilly. They both have attributes, sir. Whether 
or not they are worth the buy, I am not in a position--I don't 
manage either one of those programs.
    Mr. Spratt. One of the programs you do manage, I think, 
still is the Satellite Tracking Surveillance System (STSS), now 
to be called the PTSS. Before that it was the Space-Based 
Infrared System (SBIRs) Low, SBIRs High. Number one, what does 
PTSS do that STSS--how do you distinguish those two programs? 
Number two, what do they add to the quality and capability of 
the missile defense that we have for national defense?
    General O'Reilly. Sir, the Space Tracking Surveillance 
System, the STSS, which was an outcome of the old SBIRs Low, we 
launched it this year, or actually September of last year, both 
satellites are on orbit. They are the first satellites that 
have the ability to track a missile over its entire flight. So 
they are doing groundbreaking work.
    Actually, the PTSS is a smaller satellite. It is focused on 
certain parts of the Earth, and it will stare at certain parts 
of the Earth at a much simpler system than what the STSS had 
because we have found there are regions of the world where we 
are most worried about in missile defense.
    And so one of the problems we have found in building 
satellites in the past is their complexity. So the PTSS system 
is actually significantly less complex than the STSS satellites 
we are flying today. We believe, again, it would be more 
affordable, and it is more--once you put a constellation up, 
you can quickly reconstitute it if you ever had a problem with 
a satellite on orbit. And it is an entire system. STSS is a 
satellite. The Precision Tracking Space System, PTSS, also 
incorporates the command and control system and the 
communications system all the way through a fire control 
system, such as Aegis or THAAD.
    Mr. Spratt. Do you still propose to go forward with 
deployment of the STSS?
    General O'Reilly. No, sir. The STSS is a fantastic 
capability we have today that is providing us design 
information. But we believe the PTSS, which is a smaller 
satellite, can, in fact, perform the mission that we need in 
missile defense.
    Mr. Spratt. Thank you very much.
    Mr. Langevin. I thank the gentleman.
    We are going to go for a brief second round of questions.
    If I could, General, let me ask you, since the START Treaty 
was just signed recently. Obviously, there has been a lot of 
talk about this and its effect on MDA's work. Can you describe 
how implementing the treaty would affect MDA's testing?
    General O'Reilly. It will allow us to test--let me start 
again, sir. In the Pacific, the greatest concern we have for 
testing missile defense is our hazard areas, the debris that it 
causes, and to conduct that safely. So we do a lot of testing 
in the Pacific. The issue we run into is where to launch the 
targets from. In the previous treaty, we were restricted by 
launching targets from airborne targets, from aircraft, or from 
waterborne targets. So under the new treaty, we do not have 
those restrictions, and that gives us much greater flexibility 
in conducting long-range testing in the Pacific. In the past we 
have tested 1,000 kilometers. Now we will be testing 2-, 3-, 
4,000-kilometer threats against our systems. And the New START 
Treaty allows that without any constraints.
    Mr. Langevin. Very good. Thank you.
    I would like to turn, if I could, to the issue of radar. 
MDA has been an excellent innovator at driving advanced 
technology, especially in the sensor arena. I have two issues 
of concern, however, related to MDA's radar technology plans. 
Maybe you can clarify it for me.
    The first issue was the Army Navy/Transportable Radar 
Surveillance (AN/TPY-2) radars. These radars are slated to play 
an important role in the President's Phased, Adaptive Approach 
plan for European missile defense and other regional defense 
plans for the Middle East and East Asia. They are also the 
radar system for the THAAD fire control units. With such high 
demand for these radars, I am concerned about potential 
production schedule shortfalls. How does your fiscal year 2011 
request address the growing need for AN/TPY-2 radars, and does 
MDA have a plan for addressing any production shortfalls?
    General O'Reilly. Sir, the plan that we were on when we 
submitted the budget for the TPY-2 would allow us to have two 
radars available in their forward-based mode and match the 
delivery schedule for our THAAD units. So we will deliver one 
THAAD unit this year and be able to deliver a THAAD unit per 
year until we have nine total THAAD units. So we had 
synchronized the delivery and the purchases of our TPY-2s in 
order to achieve that.
    We have several radars that are in testing today that we 
were going to refurbish so they can, in fact, be used for THAAD 
radars or forward-based radars. We took that refurbishment into 
account. We have found an opportunity we have right now because 
we actually accomplished the testing sooner of the radars, and 
they performed very well. So we are now putting them in 
refurbishment earlier so that, in fact, we will have an 
additional radar in the near-term available that we hadn't 
planned on. But we were taking advantage, managing very 
carefully, the success we have had with that radar.
    Mr. Langevin. Thank you.
    Secondly, I wanted to address the issue of investment in 
optical sensors versus radar sensors. I am concerned about the 
lack of funding for next-generation advanced radar technology. 
I know we spoke a little bit about this recently, but maybe you 
can clarify this.
    I realize that MDA's Sensors Directorate funds existing 
radars such as the previously discussed AN/TPY-2 radar, but 
there are new radar technologies that could significantly 
increase radar coverage at the same cost as existing systems. 
How will MDA continue to encourage development of these new 
radar technologies?
    General O'Reilly. Sir, in our innovative technology area, 
we have invested about $110 million a year in Small Business 
Innovation Research and university programs. There is a lot of 
work going on at that level in the area of substrates and 
electronics for radars. We also have several other programs 
that are looking at advancing the use of the algorithms on the 
radar. So there are two areas of radar development; one is in 
the area of the software and the algorithms so we can improve 
the discrimination capability in particular; and then, also, in 
the areas of having much more robust, more powerful radars in 
the size of a current radar. In fact, we recently signed an 
agreement working between our universities and in the Czech 
Republic on how to develop greater, more efficient performing 
substrates for our radar technology. So we are very interested 
in continuing on radar development work, but at the same time, 
we are finding that there is significant contribution, also, in 
the infrared. We need them both. The reason is because if you 
are relying on one type of sensor, you are vulnerable for that 
sensor to be countered in some way. And the more sensors we 
have, and the more different phenomenology we use, the much 
more difficult it is for an adversary in order to interfere 
with our sensor system.
    Mr. Langevin. Very good. Thank you, General.
    The ranking member is now recognized.
    Mr. Turner. Last year when we received the Obama 
Administration's defense budget from which we could learn of 
its missile defense policies, $1.2 billion was recommended cut 
in the budget, which this Congress implemented. One of the 
things that was done in that budget was to cut completion, 
construction of Missile Field Number 2 in Alaska. When our 
National Defense Authorization Act (NDAA) came forward, I 
offered an amendment which I offered that would have restored 
the funding for Missile Field 2. Unfortunately, we did not have 
the support of the Democrat members on the committee, and the 
amendment did not pass. Not one member of the Democrat side 
voted for it.
    Oddly, the Administration then reversed its position, after 
the NDAA and after Congress did not put the money back, and 
decided to complete Missile Field 2. So we are going to go 
ahead and spend the money that this committee voted not to 
spend in completing that.
    However, we are also learning, though--again, I want to 
digress for just a moment that this is the missile field that 
Dr. Roberts indicates is our primary response for North Korea 
and Iran, and will be continuing our primary response, I 
believe, until 2020 by the Phased, Adaptive Approach, because 
that is when the Administration's announced Phased, Adaptive 
Approach plan in 2020 provides alternative, or additional, 
coverage to the United States for our mainland United States.
    I am concerned, though, of course, that what we learn is 
that Missile Field 1 is now considered to be decommissioned. 
And considering whether or not this Congress may also want to 
reconsider that and then wondering whether or not the 
Administration might subsequently reverse its decision on that, 
it would probably be helpful for us to have information on it.
    General O'Reilly, rather than decommissioning Missile Field 
1 at Fort Greely, Alaska, what would it take to upgrade it, 
including necessary hardening and technology, to further 
leverage it as a hedge capacity, which would take us back to 
the original plan of 44 interceptors instead of the--I believe 
we are going down to 30?
    General O'Reilly. Sir, first of all, again, through the 
assessments that were done through the Ballistic Missile 
Defense Review, that is when it was determined that, in fact, 
it would be beneficial to have a hedge. That was part of the 
results of the review. We did not have that at the time last 
year when we submitted the budget. Working closely with 
combatant commanders, the determination was, for the 
foreseeable future, we saw that 30 missiles would be 
sufficient, and that is why the decision was made. It was made 
in consultation with the combatant commanders.
    However, as part of the result of the Ballistic Missile 
Defense Review, one of the tenets is that we must be flexible 
against future intelligence estimates, and because of that, the 
most straightforward way to gain that flexibility would be to 
have the potential--or to reconstruct or complete the 
construction of the missile field. Due to the number of GBIs 
that we have, in fact, you would have a capability you could 
reconstitute for the next decade in that missile field.
    You asked me about Missile Field Number 1. The reason it 
was decommissioned or it is planned to be decommissioned is 
that it was designed to be a test bed, and it did not have the 
hardening, as you say, sir. But not only that, it has 
environmental issues and things that occur when you have a 
construction--underground construction like we have in Missile 
Field 1. So we would need to remediate that. We would need to 
actually remove almost all of the active components of that 
missile field and replace them with newer ones. The timeframe 
with that would be on the order of two years. The costs that we 
have looked at in the past when we looked at different options 
would be on the order of--and this has been done several years 
ago, sir, so the costs are somewhat approximate--would be on 
the order of $200 million.
    Mr. Turner. Thank you, General.
    Dr. Roberts, when you were doing your comparison of the GBI 
proposal for the two-stage at the third site in Poland and 
Czech Republic, including the radar in the Czech Republic, you 
indicated 2011, we need to get everything done faster. One of 
the things that I understand about the previous proposal is 
that it would have provided--and this was well-known figures 
that were established and discussed--75 percent coverage for 
Europe, and then also the coverage for mainland United States. 
Seventy-five was the number that was discussed openly with even 
our European allies. So there were discussions about what are 
we going to do with the gap and then discussions with NATO-
ization.
    Do you have the figures for Phase 1 of the Phased, Adaptive 
Approach of the percentage of Europe that will be covered?
    Dr. Roberts. I do not.
    Mr. Turner. I assume if you don't have it for Phase 1, you 
don't have it for Phase 2, Phase 3, or Phase 4 either.
    Dr. Roberts. Phase 4 and 3 are 100 percent.
    Mr. Turner. One hundred percent? And what is the year that 
you hit that?
    Dr. Roberts. Phase 3 is roughly 2015.
    Mr. Turner. And Phase 3, you are projecting 100 percent.
    Dr. Roberts. I believe so.
    Mr. Turner. And for the United States mainland?
    Dr. Roberts. With our current position--I mean, that is not 
changing materially as a result of Phases 1, 2, or 3 in Europe.
    Mr. Turner. Meaning that there isn't coverage. That 
coverage arrives in 2020 with Phase 4.
    Dr. Roberts. Correct.
    Mr. Turner. But Phase 1 and Phase 2, you don't have the 
figures as to what the percentage of coverage for Europe, 
because obviously that is important for NATO-ization. It is 
important for us, an evaluation. Can you provide those to us 
for another time?
    Dr. Roberts. I am happy to do that.
    [The information referred to was not available at the time 
of printing.]
    Dr. Roberts. I would like to address a concern of yours, I 
think, and sparked by a comment from Mr. Larsen about phased, 
adaptive being an architecture. Phased, adaptive is a policy. 
What we have been doing since the announcement of the policy is 
turning it into the elements of each of the four steps. We knew 
in the analytical work conducted in July and August that we 
were headed towards an adaptive capability that required two 
locations for shooters--interceptors--in Southeastern Europe 
and somewhere in Northern Europe, and to a forward-based radar 
capability.
    We did not do detailed architectural work. We looked in 
detail at alternative architectures with the support of the 
Missile Defense Agency, but we did not choose an architecture 
in September. We chose a policy approach that would be phased 
and adaptive involving improving technology as we could acquire 
it, tested and proven, and into Europe as quickly as possible. 
We heard immediately from vulnerable allies in the 70 percent 
equation, 75 percent equation--those left out--that they were 
looking for protection early because they were the ones who 
were the most vulnerable early. We wanted to meet their demands 
for protection and scale the capability as the threat develops 
and as our capabilities improve.
    So the architecture--we did not have an architecture in 
September that we did not brief you on. We briefed you on the 
elements of the policy. We provided materials on notional 
coverage that would go with the different phases, based on 
assumptions about where things might be deployed. And what we 
have been doing subsequently is working with our partners to 
determine--both within the multilateral context within NATO and 
separately to determine how to bring the pieces together. So we 
have been bringing forward the details as they have turned into 
details, but we did not choose an architecture in September 
that we have been privately working out.
    Mr. Turner. As you look at the Phased, Adaptive Approach 
and the different phases, are there Aegis and THAAD that are 
dedicated assets to United States European Command? And then 
the reason why I am asking this question is because, as part of 
the Phased, Adaptive Approach, is it that the assets are 
dedicated, or do they flow in and out? How is that going to 
work with respect to Aegis and THAAD? Are they dedicated, or do 
they at times leave and go do other tasks?
    Dr. Roberts. This is a question for the Joint Staff to 
determine through its Global Force Management Project. When 
there are too few assets available for the combatant 
commanders, the Joint Staff is responsible for having a plan 
for adjudicating competing demands.
    Mr. Turner. So when we ask the questions about coverage, I 
guess part of the information that we need in coverage is 
depending upon what assets are there and what assets are not.
    Dr. Roberts. Correct.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Langevin. I thank the ranking member.
    With that, I just want to thank our panel for their 
outstanding testimony today and for being here. We look forward 
to, obviously, continued vigorous oversight in this area, 
obviously, as we go forward with ballistic missile defense. It 
is going to be vitally important to the Nation. We look forward 
to being active partners with you in that effort.
    With that, some of the members may have additional 
questions that they will submit for the record, and I would ask 
the panel to respond expeditiously in writing.
    Mr. Langevin. With that, this subcommittee is adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 15, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 15, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8294.001
    
    [GRAPHIC] [TIFF OMITTED] T8294.002
    
    [GRAPHIC] [TIFF OMITTED] T8294.003
    
    [GRAPHIC] [TIFF OMITTED] T8294.004
    
    [GRAPHIC] [TIFF OMITTED] T8294.005
    
    [GRAPHIC] [TIFF OMITTED] T8294.006
    
    [GRAPHIC] [TIFF OMITTED] T8294.007
    
    [GRAPHIC] [TIFF OMITTED] T8294.008
    
    [GRAPHIC] [TIFF OMITTED] T8294.009
    
    [GRAPHIC] [TIFF OMITTED] T8294.010
    
    [GRAPHIC] [TIFF OMITTED] T8294.011
    
    [GRAPHIC] [TIFF OMITTED] T8294.012
    
    [GRAPHIC] [TIFF OMITTED] T8294.013
    
    [GRAPHIC] [TIFF OMITTED] T8294.014
    
    [GRAPHIC] [TIFF OMITTED] T8294.015
    
    [GRAPHIC] [TIFF OMITTED] T8294.016
    
    [GRAPHIC] [TIFF OMITTED] T8294.017
    
    [GRAPHIC] [TIFF OMITTED] T8294.018
    
    [GRAPHIC] [TIFF OMITTED] T8294.019
    
    [GRAPHIC] [TIFF OMITTED] T8294.020
    
    [GRAPHIC] [TIFF OMITTED] T8294.021
    
    [GRAPHIC] [TIFF OMITTED] T8294.022
    
    [GRAPHIC] [TIFF OMITTED] T8294.023
    
    [GRAPHIC] [TIFF OMITTED] T8294.024
    
    [GRAPHIC] [TIFF OMITTED] T8294.025
    
    [GRAPHIC] [TIFF OMITTED] T8294.026
    
    [GRAPHIC] [TIFF OMITTED] T8294.027
    
    [GRAPHIC] [TIFF OMITTED] T8294.028
    
    [GRAPHIC] [TIFF OMITTED] T8294.029
    
    [GRAPHIC] [TIFF OMITTED] T8294.030
    
    [GRAPHIC] [TIFF OMITTED] T8294.031
    
    [GRAPHIC] [TIFF OMITTED] T8294.032
    
    [GRAPHIC] [TIFF OMITTED] T8294.033
    
    [GRAPHIC] [TIFF OMITTED] T8294.034
    
    [GRAPHIC] [TIFF OMITTED] T8294.035
    
    [GRAPHIC] [TIFF OMITTED] T8294.036
    
    [GRAPHIC] [TIFF OMITTED] T8294.037
    
    [GRAPHIC] [TIFF OMITTED] T8294.038
    
    [GRAPHIC] [TIFF OMITTED] T8294.039
    
    [GRAPHIC] [TIFF OMITTED] T8294.040
    
    [GRAPHIC] [TIFF OMITTED] T8294.041
    
    [GRAPHIC] [TIFF OMITTED] T8294.042
    
    [GRAPHIC] [TIFF OMITTED] T8294.043
    
    [GRAPHIC] [TIFF OMITTED] T8294.044
    
    [GRAPHIC] [TIFF OMITTED] T8294.045
    
    [GRAPHIC] [TIFF OMITTED] T8294.046
    
    [GRAPHIC] [TIFF OMITTED] T8294.047
    
    [GRAPHIC] [TIFF OMITTED] T8294.048
    
    [GRAPHIC] [TIFF OMITTED] T8294.049
    
    [GRAPHIC] [TIFF OMITTED] T8294.050
    
    [GRAPHIC] [TIFF OMITTED] T8294.051
    
    [GRAPHIC] [TIFF OMITTED] T8294.052
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 15, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8294.053
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 15, 2010

=======================================================================

      


                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. The BMDR notes that defense of the homeland may be 
aided by the development of new technologies and concepts. These 
include intercepting long-range missiles early in their flight, 
launching interceptors based on remote sensor information, and 
strengthening ballistic missile sensors. Specifically, this might 
include launching SM-3 Block IIB missiles ``which should provide some 
capability to intercept long-range missiles'' by 2020. MDA will 
continue development and assessment of a two-stage GBI, including a 
flight test planned for June 2010, and research on the potential of 
directed energy systems for missile defense. With the exception of 
continued development and testing of the two-stage GBI, new 
technologies for homeland defense are at the concept development stage. 
Continued development of the 2-stage GBI is meant as a hedge in case 
the SM-3 Block II missile, intended for Europe, encounters significant 
developmental delays.
    Secretary Roberts, can you describe how the Ballistic Missile 
Defense Review was shaped by, and provides guidance for, the 
contingency that either North Korea or Iran, or both, more rapidly 
develop ICBM-type systems?
    Dr. Roberts. The United States is currently protected against the 
attacks that North Korea or Iran would be able to launch if they were 
to develop an ICBM capability. This protection is a result of 
investments made over the past decade in a system based on ground-based 
midcourse defense (GMD). Because of continuing improvements in the GMD 
system and the number of ground-based interceptors now deployed, 
compared to potential North Korean and Iranian long-range ballistic 
missile capabilities, the United States possesses a capability to 
counter the projected threat from North Korea and Iran for the 
foreseeable future.
    Preserving this capability as these threats continue to develop is 
essential. Toward that end, the Administration is continuing to sustain 
and improve the GMD system through a variety of means, including a 
rigorous flight-testing program. The United States is also pursuing 
several other hedging strategies to maintain the currently favorable 
position over the long term. For example, the United States will 
continue development and assessment of a two-stage ground-based 
interceptor. We will also pursue multiple paths to develop and deploy 
ballistic missile sensors, including both airborne and space-based 
detection and tracking systems. Although the Airborne Laser (ABL) 
program has been restructured, the Department will continue to research 
the potential of directed energy systems for missile defenses, 
including the establishment of a directed energy research program 
inside MDA.
    The Department also plans to complete the construction of Missile 
Field 2 in Fort Greely, Alaska to a 14 silo configuration and to 
decommission Missile Field 1. (Missile Field 1 was designed as a test 
bed only and was not built to current operational specifications and is 
not sufficiently reliable for long-term operational deployment.) These 
improvements will provide a reserve capability to deploy rapidly up to 
8 additional GBIs from the pool of interceptors currently designated 
for testing. Although the Department does not currently foresee a need 
for more than 30 deployed GBIs, eight extra operational silos will 
provide an additional hedge against future uncertainty.
    Mr. Langevin. Secretary Roberts, can you explain why the Department 
decided to complete all 14 GMD silos in Missile Field 2 at Ft. Greeley, 
Alaska when the original plan announced with the budget last year was 
to stop construction on the missile field? Is there a specific 
development which motivated the Department to adopt this hedge 
strategy?
    Dr. Roberts. The completion of all 14 silos in Missile Field 2 
provides a reserve capability to deploy up to eight additional GBIs 
from the pool of interceptors currently designated for testing. 
Although the Department does not currently foresee a need for more than 
30 deployed GBIs, these extra operational silos provide an additional 
hedge against future threat uncertainty.
    Missile Field 2, currently under construction at Fort Greely, is 
planned for a 14 silo configuration and will be available for GBI 
emplacements by the end of FY 2012. Once Missile Field 2 is completed 
and fully available for emplacing GBIs, we plan to transfer six GBIs 
currently deployed in Missile Field 1 to Missile Field 2 and to 
decommission Missile Field 1. Missile Field 1 was designed as a test 
bed only and was not built to current operational specifications and is 
not sufficiently reliable for long-term operational deployment.
    Mr. Langevin. According to the BMDR, the Administration plans to 
tailor its Phased, Adaptive Approach to other regions such as East Asia 
and the Middle East. These ``regional missile defense architecture'' 
plans are still in development, so the inventory and resources 
requirements for Aegis BMD ships, SM-3 interceptors, THAAD, Patriot and 
further host nation/basing support are not certain. Recognizing the 
``regional demand for U.S. BMD assets is likely to exceed supply for 
some years to come,'' the Joint Staff and STRATCOM are developing ``a 
comprehensive force management process.''
    Secretary Roberts, the new Phased, Adaptive Approach (PAA) to 
missile defense is likely to have significant force structure 
implications--have these requirements been quantified yet?
    Dr. Roberts. The Department will rely on the Global Force 
Management process to assist in decisions on the allocation of missile 
defense forces among the geographic combatant commands.
    This process adjudicates competing requirements for missile defense 
assets from the various combatant commands. The requirement to allocate 
scarce resources underscores the value of developing capabilities that 
are flexible, adaptive, and relocatable, so that they can be surged 
into troubled regions in times of political-military crisis.
    It is important to note that the Phased, Adaptive Approach (PAA) is 
an approach to regional missile defense that will be adjusted 
continuously as risks and threats evolve, and as such, there is no 
final architecture or a specific set of force structure requirements 
for each region. The guidance from the Ballistic Missile Defense Review 
(BMDR) will help to inform combatant command requests for missile 
defense assets and guide the Global Force Management adjudication 
process for addressing competing requests.
    Mr. Langevin. In 2007, the Joint Capabilities Mix Study II, 
approved by DOD's Joint Requirements Oversight Council, concluded that 
combatant commanders required at least twice as many SM-3 and THAAD 
interceptors as were planned at the time. General O'Reilly, are you 
confident that the President's Budget contains sufficient resources to 
procure new SM-3 and THAAD interceptors to meet predicted inventory 
needs of the PAA?
    Dr. Roberts. The Joint Staff is leading a review which includes an 
examination of how the Global Force Management process will incorporate 
the updated missile defense policy and planning guidance contained in 
the Ballistic Missile Defense Review. The review will be completed in 
the summer of 2010. Additionally, the Joint Capability Mix-3 study will 
determine inventory levels of BMD assets by spring 2011.
    Mr. Langevin. How might the regional plans for the Middle East and 
East Asia affect requirements for BMD ships, batteries, and 
interceptors?
    Dr. Roberts. The Department will rely on the Global Force 
Management process to assist in decisions on the allocation of missile 
defense forces among the geographic combatant commands.
    This process adjudicates competing requirements for missile defense 
assets from the various combatant commands. The requirement to allocate 
scarce resources underscores the value of developing capabilities that 
are flexible, adaptive, and relocatable, so that they can be surged 
into troubled regions in times of political-military crisis.
    It is important to note that the Phased, Adaptive Approach (PAA) is 
an approach to regional missile defense that will be adjusted 
continuously as risks and threats evolve, and as such, there is no 
final architecture or a specific set of force structure requirements 
for each region. The guidance from the BMDR will help to inform 
combatant command requests for missile defense assets and guide the 
Global Force Management adjudication process for addressing competing 
requests.
    Mr. Langevin. Secretary Roberts, given the fact that regional 
demand for U.S. BMD assets is likely to exceed supply for some years to 
come,'' when do you think that the comprehensive force management 
process be completed to allocate these scarce resources?
    Dr. Roberts. The Joint Staff is leading a review of the current 
Global Force Management process to incorporate updated missile defense 
policy and planning guidance contained in the Ballistic Missile Defense 
Review. The review will be complete in the summer of 2010. 
Additionally, the Joint Capability Mix-3 study will determine inventory 
levels of BMD assets by spring 2011.
    There is no final configuration for the system. It is clear that an 
effort to match one-for-one the potential deployments of short-range 
missiles within the regions would be prohibitively expensive. 
Accordingly, the United States must pursue a comprehensive approach to 
risk management. Missile defenses are an essential element of the U.S. 
commitment to strengthen regional deterrence architectures against 
states acquiring nuclear weapons and other weapons of mass destruction 
in contravention of international norms and in defiance of the 
international community.
    Mr. Langevin. According to current plans, in ten years the United 
States is expected to have many sea-based interceptors capable in 
principle of intercepting long-range missiles.
    Secretary Roberts, what steps will be taken to make sure that this 
system does not lead China to increase its number of long-range nuclear 
missiles as a way of preserving its retaliatory capability in the face 
of such defenses? And what steps are being taken currently to reassure 
Russia that U.S. missile defense plans do not result in a destabilizing 
capability that could be used to intercept Russian ICBMs (launched from 
Russian missile sites west of the Urals)?
    Dr. Roberts. As the President has made clear, both Russia and China 
are important partners for the future, and the United States seeks to 
continue building collaborative and cooperative relationships with 
them.
    The United States will continue to seek to discuss missile defense 
and strategic stability matters with China. The Administration is 
committed to substantive and sustained dialogue with China, with the 
goals of enhancing confidence, improving transparency, and reducing 
mistrust on strategic security issues. At the same time, it is 
important that China understand that the United States will work to 
ensure protection of our forces, allies, and partners in East Asia 
against all regional ballistic missile threats.
    With Russia, the Administration is pursuing an agenda aimed at 
bringing the strategic military postures of our two countries into 
alignment with our post-Cold War relationship--no longer enemies, no 
significant prospect of war between them, and cooperating when mutually 
advantageous.
    To address stated Russian concerns over our future BMD 
capabilities, we plan to continue to engage Russia on a broad range of 
cooperative initiatives as well as transparency and confidence building 
measures. As part of this effort, we provided Russia with a briefing 
demonstrating that the interceptors we are planning as part of the 
European Phased, Adaptive Approach (PAA) will not have the capability 
necessary to intercept Russian ICBMs heading to the United States.
    Mr. Langevin. In previous years, Congress had established 
limitations on funding for and deployment of the Bush Administration's 
European missile defense plans pending the satisfaction of certain 
criteria, including: signed and ratified host nation agreements, 
independent analysis of alternatives, and Secretary of Defense 
certification that the system has undergone operationally realistic 
testing.
    Secretary Roberts, would you agree that the deployment of missile 
defenses in Europe should be held to the same standards that the 
Congress established for the previous plan?
    Dr. Roberts. It is essential that systems be deployed following 
operationally realistic testing. This is a key theme of the Ballistic 
Missile Defense Review and is reflected in the budget for FY2011. The 
Administration is committed to deploying capabilities that have been 
proven under extensive testing and assessment and are affordable over 
the long term. To strengthen the testing program, a number of steps are 
being taken. Working in close partnership with the Director of 
Operational Test and Evaluation, as requested by Congress, the Missile 
Defense Agency announced a new approach to testing in June 2009. This 
program sets forth test activities over the full course of each 
system's development, not just two years into the future as under the 
former program. These activities include a comprehensive set of ground 
and flight tests designed to demonstrate operational performance and 
validate models used to support an evaluation of system effectiveness. 
The new master plan is to be reviewed and updated semiannually. This 
new approach will be evaluated after one year of experience (June 
2010), and any necessary adjustments will be made at that time. We do 
not, however, see a need for supplemental certification from the 
Secretary of Defense.
    In addition, we need to have agreements with our allies to allow us 
to proceed to deployment. In fact, many of those agreements are in 
place already. U.S. efforts to implement the European Phased, Adaptive 
Approach (PAA) have proceeded at a rapid pace and we have made 
significant progress since the September 2009 announcement of the new 
approach.
    Mr. Langevin. According to press reports, the tri-national Medium 
Extended Air Defense System (MEADS) co-development program may not meet 
the requirements of the Army's Integrated Air and Missile Defense 
(IAMD) architecture and joint operational concept. The Army's IAMD 
architecture relies on the IAMD Battle Command System (IBCS) to provide 
battle management and command and control (C2) across all Army air and 
missile defense sensors and shooters. IBCS also provides the interface 
to other air and missile defense battle management and C2 systems such 
as the Missile Defense Agency's Command and Control, Battle Management, 
and Communications (C2BMC) and the Navy's Cooperative Engagement 
Capability (CEC), which enables access to their sensors and interceptor 
systems. However, the MEADS program, as currently planned, does not 
include the IBCS. Staff understands that the United States requested a 
restructure of the MEADS program in the fall of 2008 and has proposed 
substituting IBCS as the MEADS battle manager.
    While the Army will not be represented in the hearing, staff 
understands that the Army has considered asking MDA to take 
responsibility for the MEADS program.
    Secretary Roberts, can you describe OSD's views about the role of 
the MEADS program in our efforts to establish greater international 
cooperation on missile defense? And what course should the United 
States pursue to ensure that the resulting system will meet Army 
requirements as well as the international objectives?
    Dr. Roberts. The MEADS program, under co-development in a 
partnership among the United States, Germany, and Italy, is the only 
active missile defense development program the United States currently 
has with NATO partners. We believe that honoring U.S. commitments to 
our cooperative program partners is critical.
    Although there have been numerous schedule delays and cost growth 
in the MEADS program, the program is being restructured so that it can 
better meet its cost, schedule, and performance goals.
    When ready, MEADS will offer a replacement for the Patriot system 
that is more capable, more easily sustained, and more mobile. It could 
be an important part of a NATO missile defense effort.
    Mr. Langevin. Secretary Roberts, given the cost and schedule 
problems the Army has encountered in the MEADS program, is the 
Department considering revamping this international cooperation 
program?
    Dr. Roberts. Discussions regarding a possible transfer to the 
Missile Defense Agency (MDA) have occurred; however, no decision has 
been made to date.
    Although there have been numerous schedule delays and cost growth 
in the MEADS program, the program is being restructured so that it can 
better meet its cost, schedule, and performance goals.
    The Department of the Army currently has program support and 
budgetary responsibility for the MEADS programs. The Army and the Under 
Secretary of Defense for Acquisition, Technology, and Logistics can 
better discuss our specific efforts to ensure the affordability of the 
program.
    Mr. Langevin. The BMDR notes that defense of the homeland may be 
aided by the development of new technologies and concepts. ``These 
include intercepting long-range missiles early in their flight, 
launching interceptors based on remote sensor information, and 
strengthening ballistic missile sensors. Specifically, this might 
include launching SM-3 Block IIB missiles ``which should provide some 
capability to intercept long-range missiles'' by 2020. MDA will 
continue development and assessment of a two-stage GBI, including a 
flight test planned for June 2010, and research on the potential of 
directed energy systems for missile defense. With the exception of 
continued development and testing of the two-stage GBI, new 
technologies for homeland defense are at the concept development stage. 
Continued development of the 2-stage GBI is meant as a hedge in case 
the SM-3 Block II missile, intended for Europe, encounters significant 
developmental delays.
    General O'Reilly, what are MDA's plans for the 2-stage GBI? Has MDA 
identified a key milestone or date upon which a decision would be made 
to continue with the SM-3 Block II missile or switch to the 2-stage GBI 
``hedge''?
    General O'Reilly. The Department of Defense is investing in new 
missile defense capacity and capabilities to hedge against future 
uncertainties in both the ballistic missile threat and the technical 
risk inherent to our own development plans. One such hedge effort is 
the development and testing of a 2-Stage Ground Based Interceptor 
(GBI). While there are no plans to field this interceptor at this time, 
maintaining a 2-Stage GBI development and testing program preserves 
national policy options to field missile defenses in a timely and 
effective manner.
    The availability of the demonstrated 2-stage GBI will also serve to 
reduce the risk and required development time to incorporate this 
alternative asset in the BMD architecture if deemed advantageous in the 
future. We will be flight testing the 2-stage GBI for the first time in 
June 2010. During Booster Vehicle Test (BVT)-01. By conducting the 
first test event in FY10, early critical data will be available to 
support future technical trades. In FY12 we will test a 2-stage GBI on 
Flight Test Ground (FTG)-08. Twelve of the thirteen planned Critical 
Engagement Conditions (CEC) and Empirical Measurement Events (EME) for 
2-stage development are collected with BVT-01 and FTG-08 flight tests. 
The remaining CEC/EME is collected in FY 2016 with FTG-17.
    There are two planned versions of the SM-3 Block II, the SM-3 Block 
IIA and the SM-3 Block IIB. The SM-3 Block IIA is planned for use 
aboard ships first, and then used ashore until the Block IIB is 
developed and available. The Aegis BMD ship-based SM-3 Block IIA 
remains an operational need independent of decisions related to 
developing and producing two-stage GBIs or Block IIB's.
    At this point in time MDA is engineering the systems and maturing 
the technologies for the SM-3 Block IIB. The technical maturity will be 
determined through a series of knowledge points (KPs) that ties 
achievement of critical information to reducing developmental risk and 
increasing confidence in meeting the desired capabilities. These 
knowledge points will build confidence in the SM-3 Block IIB.
    It is important to note that the Department does not view the SM-3 
Block II and the 2-Stage GBI as either/or programs. The Department 
plans to invest in SM-3 Block II interceptors for operational use and 
the 2-Stage GBI solely for development and testing at this time. Any 
future decision to pursue an operational 2-Stage GBI would not preclude 
the option to continue efforts for the SM-3 Block IIB interceptors, and 
vice-versa.
    Mr. Langevin. According to the BMDR, the Administration plans to 
tailor its Phased, Adaptive Approach to other regions such as East Asia 
and the Middle East. These ``regional missile defense architecture'' 
plans are still in development, so the inventory and resources 
requirements for Aegis BMD ships, SM-3 interceptors, THAAD, Patriot and 
further host nation/basing support are not certain. Recognizing the 
``regional demand for U.S. BMD assets is likely to exceed supply for 
some years to come,'' the Joint Staff and STRATCOM are developing ``a 
comprehensive force management process.''
    General O'Reilly, given the fact that regional demand for U.S. BMD 
assets is likely to exceed supply for some years to come,'' when do you 
think that the comprehensive force management process be completed to 
allocate these scarce resources?
    General O'Reilly. The Joint Staff is leading a review of the 
current Global Force Management process to incorporate updated missile 
defense policy and planning guidance brought on by the Ballistic 
Missile Defense Review. The review will complete in the summer of 2010. 
Additionally, the Joint Capability Mix-3 study will determine inventory 
levels of BMD assets by spring 2011.
    Mr. Langevin. To enhance the effectiveness of all missile defense 
systems, and to reduce reliance on land and sea-based sensors, MDA has 
created a new program this year, Precision Tracking Space System or 
PTSS.
    General O'Reilly, given the ongoing challenges in space 
acquisition, can you assure the committee that the PTSS program can be 
delivered in a timely way at a reasonable cost?
    General O'Reilly. Yes. Challenges and problems associated with past 
satellite development programs indicate that a stable baseline and risk 
reduction is necessary to improving development timelines. Developing 
prototypes prior to making production decisions will ensure that proper 
Technology Readiness Levels (TRL) are achieved, thereby improving our 
development timelines. The PTSS acquisition strategy is to develop a 
prototype system with Johns Hopkins University's Applied Physics 
Laboratory before awarding production development contracts to 
industry. Additionally, we will award contracts to several industry 
participants during concept development and exploration to insure the 
prototype can be readily produced by industry. Industry engagement 
during the prototyping phase will greatly improve the level of 
understanding by the contractors and reduce risk for PTSS production. 
This partnership between industry and the scientific community will 
ensure our understanding of requirements before we award production 
development contracts.
    The MDA also intends to leverage heritage, high TRL space system 
components for the PTSS. This approach focuses on component reuse and 
integration and minimizes the need for new technology development and 
custom design which will drive costs up and increase development 
timelines.
    Mr. Langevin. What actions is MDA pursing to ensure the program 
establishes a realistic baseline and only uses mature technology? What 
technology and other lessons learned is the PTSS program taking from 
the STSS demonstration satellites? Finally, can you explain why MDA is 
planning to acquire a satellite capability when the Air Force has the 
primary expertise for space systems?
    General O'Reilly. Challenges associated with past satellite 
development programs indicate that a stable baseline is necessary to 
improve development timelines. To that end, MDA will establish the 
requirements baseline upfront and early and discourage future growth 
without operational necessity. MDA also intends to leverage heritage, 
high Technology Readiness Level components and subsystems for the PTSS. 
This approach focuses on component reuse and integration and minimizes 
the need for new technology development that may drive costs up and 
increase development timelines.
    MDA is further incorporating lessons learned from the STSS 
demonstration satellites to inform our decisions on the development of 
PTSS, specifically in the areas of phenomenology and fire control. STSS 
phenomenology data (i.e., infrared scene collections such as 
atmospheric backgrounds, clouds, earth limb observations, etc.) will be 
used to anchor models essential to the missile tracking mission. In the 
case of PTSS, this category of collections is planned to be used in 
payload design, and validate the selection of optics, focal planes, 
wavebands of interest and data processing. STSS uses on-board 
processing to autonomously generate missile target tracks and pass that 
data to the ground control system. The PTSS program will analyze STSS 
processing performance to determine the level of on-board processing 
required, from a system-wide perspective for PTSS.
    The development of PTSS is in line with MDA's charter to develop, 
integrate and test all missile defense capabilities, including and not 
limited to missiles and sensors. PTSS is more than a satellite 
development program--it is an integral part of the extended Aegis fire-
control system. The development of space-based remote sensing and the 
integration of the data into Ballistic Missile Defense (BMD) fire-
control architectures are integral to early intercept capability (a key 
focus of MDA). The objective of the PTSS program is to address the 
ascent-phase, midcourse tracking challenge facing the joint warfighter.
    MDA is collaborating with key Air Force stakeholders including Air 
Force Space Command, the Space and Missile Systems Center and the 
appropriate members of the Air Staff on specific roles and 
responsibilities. MDA is collaborating with the Air Force to establish 
a Service Cell within the PTSS Hybrid Program Office which will ensure 
the PTSS operations and data management systems are consistent with Air 
Force initiatives. MDA is also teaming with critical technical 
expertise within the Navy and its Aegis cadre for integration of the 
PTSS into Aegis Combat System fire control design and development. 
Acting as a pathfinder, STSS will characterize the challenges of 
closing the fire control loop with Aegis BMD, addressing problems such 
as latencies, interfaces, accuracies, and biases. Using the same Navy 
expertise, PTSS will build upon the STSS launch-on knowledge, to 
continue with an engage-on campaign, expanding the battlespace for 
operational ships along with larger defended areas.
    Mr. Langevin. According to press reports, the tri-national Medium 
Extended Air Defense System (MEADS) co-development program may not meet 
the requirements of the Army's Integrated Air and Missile Defense 
(IAMD) architecture and joint operational concept. The Army's IAMD 
architecture relies on the IAMD Battle Command System (IBCS) to provide 
battle management and command and control (C2) across all Army air and 
missile defense sensors and shooters. IBCS also provides the interface 
to other air and missile defense battle management and C2 systems such 
as the Missile Defense Agency's Command and Control, Battle Management, 
and Communications (C2BMC) and the Navy's Cooperative Engagement 
Capability (CEC), which enables access to their sensors and interceptor 
systems. However, the MEADS program, as currently planned, does not 
include the IBCS. Staff understands that the United States requested a 
restructure of the MEADS program in the fall of 2008 and has proposed 
substituting IBCS as the MEADS battle manager.
    While the Army will not be represented in the hearing, staff 
understands that the Army has considered asking MDA to take 
responsibility for the MEADS program.
    General O'Reilly, we understand that the Army is concerned about 
the direction of the MEADS program, and the possibility that it will 
not work well with the broader Integrated Air and Missile Defense 
command and control system. Can you share with us your views on the 
status of the MEADS program, and any thoughts about whether it might 
more appropriately be situated in the Missile Defense Agency?
    General O'Reilly. The Missile Defense Agency (MDA) is currently 
focused on developing and fielding upper tier capabilities such as the 
Terminal High Altitude Area Defense and Aegis BMD systems. The 
integrated deployment of the lower tier MEADS and PAC-3 with MDA upper 
tier systems adds effective layered and regional missile defenses to 
the BMDS. Program support and budgetary responsibility for MEADS 
resides with the U.S. Army. I defer to the Army about the current 
status of the program. Discussions regarding a possible transfer to MDA 
have occurred; however, no decision has been made to date.
    Mr. Langevin. General O'Reilly, could you provide an update on 
remedying past problems observed with the capability of the Patriot to 
differentiate between incoming missiles and the Identification Friend 
or Foe systems?
    General O'Reilly. The U.S. Army has programmatic and budgetary 
responsibility for the Patriot program. I defer to the U.S. Army's 
senior leadership on questions pertaining to the system's technical and 
operational performance.
    Mr. Langevin. Director Gilmore, can you describe the process of 
developing and approving the Integrated Master Test Plan? How has this 
process differed from the way that the MDA and DOT&E have worked 
together in the past?
    Dr. Gilmore. My staff, along with the Missile Defense Agency (MDA), 
the Combatant Commands, and the Ballistic Missile Defense System (BMDS) 
Operational Test Agency participated in the development of the 
Integrated Master Test Plan (IMTP). DOT&E has been involved in the 
evaluation-based strategy underpinning the IMTP since General O'Reilly 
initiated its development in December 2008. In addition to detailed and 
day-to-day staff involvement in the formulation of the IMTP, I 
personally participated in a number of executive-level reviews and 
provided comments and guidance to the MDA. I approved the IMTP, which 
includes plans for operational testing. I expect that as the IMTP is 
executed, I will continue to review and approve the detailed test plans 
that support all significant BMDS testing, and that the realism of the 
testing conducted will increase over time.
    A significant difference between the current IMTP planning process 
and previous efforts is that the IMTP is now a requirements-driven 
process, while previous efforts were not. In the IMTP, each test is now 
designed to collect Verification, Validation, and Accreditation (VV&A) 
data for the models and simulations and the IMTP is reviewed and 
updated every six months. If successfully executed, the IMTP should 
lead to validated and accredited models and simulations, which may be 
used to support evaluations of the BMDS.
    Mr. Langevin. Director Gilmore, you mention in your 2009 report 
that DOT&E has begun an evaluation of the President's new Phased, 
Adaptive Approach to missile defense in Europe. Would you describe to 
the committee your plans for evaluating the PAA and any finding you can 
share from the review to date?
    Dr. Gilmore. The IMTP includes plans for dedicated operational 
testing. Operational testing, both ground and flight testing is planned 
for each phase of the Phased, Adaptive Approach (PAA). In FY12 (post 
Phase 1), the MDA intends to conduct a system-level operational test, 
FTO-1, featuring three ballistic missile targets to be intercepted by 
Aegis Ballistic Missile Defense (Aegis BMD) (version 3.6.1), Terminal 
High Altitude Area Defense (THAAD), and Patriot. FTO-2 is planned for 
FY-15 (Phase 2) and is a BMDS operational system-level flight test 
against five ballistic missile targets to be intercepted by Ground-
based Midcourse Defense (GMD), Aegis BMD, THAAD, Aegis Ashore, and 
Patriot. FTO-3 is planned for FY18 (Phase 3) and is a BMDS operational 
system-level flight test against five ballistic missile targets 
employing the same elements as FTO-2 but in their upgraded 
configurations. The IMTP does not currently address Phase 4 testing 
that would be conducted in FY20.
    Additionally, Aegis BMD will conduct flight test FTM-15 in 3QFY11 
and THAAD will conduct flight test FTT-13 in 2QFY11. Both of these are 
operationally realistic flight tests planned to demonstrate capability 
against intermediate and medium range ballistic missiles, respectively, 
and to support my assessment of the PAA Phase 1 capability prior to the 
planned FY11 deployments of these systems to the European theater. The 
MDA also plans to conduct ground testing of the command, control, 
battle management, and communications system in FY11 to support the 
Phase 1 implementation.
    To assess performance of the Phased, Adaptive Approach, as well as 
the BMD system as a whole, I have begun to apply proven statistical 
techniques that generate quantitative results from the integration of 
many different sources of information. The use of these techniques is 
necessary because BMD test results will be drawn from a variety of 
sources, including live flight tests as well as modeling and 
simulation. These techniques are similar to those currently used to 
certify the effectiveness and safety of our nuclear stockpile.
    Mr. Langevin. Director Gilmore, your 2009 report says that, to 
date, ``GMD has demonstrated a limited capability against a simple 
threat.'' Can you explain to the committee what level of confidence 
DOT&E currently has in the effectiveness of our homeland defense 
system? How do you see this level of confidence changing in the future?
    Dr. Gilmore. I will evaluate confidence as much as possible on a 
statistical, quantitative basis, not on a subjective basis. Because the 
majority of the testing providing the data needed for quantitative 
assessment will be due during the next five to seven years, I cannot 
provide a quantitative estimate of confidence in the performance of the 
missile defense system now. The estimate I provide in the future will 
depend on the outcome of all the events that can provide information. 
As there are insufficient end-to-end live tests that by themselves 
could conclusively characterize Ballistic Missile Defense System (BMDS) 
effectiveness, my evaluation will embrace additional pertinent 
information sources--including smaller-scoped developmental and 
operational testing observations, engineering and system-level 
knowledge, data on related systems and processes, and modeling and 
simulation. We will conduct detailed and fully documented integrated 
analyses for the individual constituent systems and performance 
functions (e.g., detect threat launch, tracking and discriminating, 
engagement planning and authorization, weapon launch, fire control, fly 
out, end game) that comprise BMDS architectures under varying threats 
and environments. Extensive sets of preeminent subject matter experts 
(SMEs), internal and external to DOT&E, will be integral to these 
analyses. Formal elicitation techniques and synthesis methodologies 
will be utilized to construct quantitative representations of test 
results to translate these to overall estimates of BMDS performance 
capabilities and associated uncertainties. The calculus of probability 
and the use of likelihood functions and likelihood ratios will be used 
to fuse information in much the same manner as target tracking and 
sensor fusion. This approach is comparable to that used to certify our 
national nuclear stockpile and to variants that have been applied in 
industry and in various risk assessment settings--including counter-
terrorism and homeland security studies. Additional assurance for and 
calibration of the specific application of these methods to the 
evaluation of BMDS will be obtained by systematically comparing 
recorded SME portrayals to new test results and related information 
that will emerge as the BMDS program schedule advances and additional 
testing is conducted.
    Mr. Langevin. Director Gilmore, your 2009 report says: ``the Aegis 
BMD provides a moderately well characterized capability against a 
majority of its theater-level missile threat set and its operational 
battlespace.'' Is this level of confidence sufficient to ensure that 
the first phase of the PAA will be operationally effective? If not, 
what steps will be required to achieve such effectiveness?
    Dr. Gilmore. Aegis BMD capability versus Short Range Ballistic 
Missile (SRBM) threats (that is, those that fly less than 1000 km) is 
well characterized. Against these threats, the Aegis BMD has had 
numerous flight test successes, which resulted in the Commander, 
Operational Test and Evaluation Force declaring the system in October 
2008, to be operationally effective and suitable. However, the Aegis 
BMD system has not yet conducted a flight test against a Medium Range 
Ballistic Missile (MRBM) target (a missile that flies greater than 1000 
km). The Aegis BMD system has also not demonstrated a queued engagement 
during a live flight test using track data from a forward-based sensor 
such as the AN/TPY-2 radar. Therefore, while I assess the Aegis BMD to 
be effective against SRBM threats, performance against longer range 
threats has not yet been demonstrated.
    The required steps to demonstrate this effectiveness are documented 
in the Integrated Master Test Plan (IMTP). For Phase 1, Aegis BMD will 
conduct flight test FTM-15 in 3QFY11. This operationally realistic 
flight test is planned to demonstrate capability against an 
intermediate range ballistic missile. It will exercise a launch on 
remote engagement using a forward-based AN/TPY-2 radar. In FY12, 
following the Phase 1 deployment, the MDA intends to conduct a system-
level operational test, FTO-1, featuring Aegis BMD, as well as THAAD 
and Patriot in a multiple simultaneous engagement. The MDA also plans 
to conduct ground testing of the command, control, battle management, 
and communications system in FY11 to support the Phase 1 
implementation.
    Mr. Langevin. Director Gilmore, can you detail the track record and 
any future plans for testing the system for deployment in Europe and 
the system to defense the Homeland in terms of including:
    <bullet>  Warheads and similarly-sized balloon decoys that will 
challenge the system's ability to discriminate?
    <bullet>  Tumbling warheads?
    <bullet>  Testing at night?
    <bullet>  Including multiple targets?
    Dr. Gilmore. My office's Ballistic Missile Defense System (BMDS) 
annual reports over the past few years discuss the testing the MDA has 
completed for the various elements of the BMDS. These reports describe 
the varying maturities of the different elements that make up the BMDS. 
The current IMTP includes testing of the President's phased, adaptive 
approach for the defense of Europe as well as continued testing of the 
GMD for the defense of the Homeland. As systems mature, testing in the 
IMTP evolves to include complex target scenes, testing under varying 
environmental conditions, testing against multiple targets, and testing 
in a layered and integrated ballistic missile defense architecture. 
Each test has been designed to collect the data needed to verify, 
validate, and accredit the BMDS models and simulations that will be 
used to evaluate BMDS capability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. TURNER

    Mr. Turner. Dr. Roberts, in the hearing on April 15, you stated 
that, to your knowledge, the Administration has not received assurances 
from Russia that phase four of the Phased, Adaptive Approach doesn't 
violate the new START. Please describe Administration's intent in 
seeking such assurance from Russia.
    Dr. Roberts. The Administration is not seeking assurance from 
Russia that the European Phased, Adaptive Approach (PAA) does not 
violate the New START Treaty. The New START Treaty does not constrain 
the PAA, nor does it constrain the United States from deploying the 
most effective missile defenses possible; therefore, our missile 
defense plans for Europe pose no issue of compliance with the New START 
Treaty. We have, however, explained that the missile defense 
capabilities associated with the European Phased, Adaptive Approach 
will not affect the U.S.-Russian strategic balance.
    Mr. Turner. Dr. Roberts, please provide the figures for phases one 
through four of the Phased, Adaptive Approach (PAA), and the 
corresponding percentage of the U.S. homeland as well as Europe that 
PAA would provide? Furthermore, what asset allocations would be needed 
to provide the coverage?
    Dr. Roberts. The coverage of Europe in each phase of the European 
Phased, Adaptive Approach (PAA) was briefed to the HASC in a classified 
setting on April 8, 2010. The United States is currently protected 
against limited ICBM attacks using the ground-based midcourse system 
deployed in the United States. The EPAA will enhance that coverage from 
a potential Iranian ICBM threat beginning in Phase 1 (2011 timeframe).
    The coverage in Europe is designed to cover the areas closest to 
and within range of existing and developing near-term threats first, 
with improved coverage in each phase. By Phase 3 (2018 timesframe), 
coverage will be extended to all NATO Allies in Europe. For more 
detailed information about asset locations and coverage, we can provide 
a briefing to you or your staff in a classified setting.
    Mr. Turner. Dr. Roberts and General O'Reilly, at what point do you 
believe the Department needs to reevaluate its reductions to homeland 
defense (e.g., reducing the number of GBIs from 44 to 30) because the 
threat has changed? What policy and planning assumptions would have to 
change?
    Dr. Roberts. Given the continuing improvement in the Ground-Based 
Missile Defense (GMD) system and the number of ground-based 
interceptors currently deployed compared to potential North Korean and 
Iranian capabilities, the United States now possesses a capacity to 
counter the projected threats from North Korea and Iran for the 
foreseeable future.
    Because of uncertainty about the future ICBM threat, including the 
rate at which it will mature, it is important that the United States 
maintain this advantageous position. But doing so does not require that 
the United States continue to develop these capabilities at the same 
accelerated rate as it has in recent years and accept the same level of 
risk in the developmental program. Rather, the United States will 
refocus its homeland missile defense plans to maintain our current 
advantage, while developing future, proven capabilities that will 
enhance homeland defense should a new threat emerge. This refocused 
approach was introduced in the FY 2010 budget submission, in which the 
Department of Defense proposed to hold the number of operationally 
deployed GBIs at 30, instead of the 44 originally planned. The 
completion of eight additional empty silos at Fort Greely, Alaska and 
the storage of test and spare GBIs will provide a hedge against 
unanticipated ICBM threat growth. We are also developing stronger 
sensor networks with additional land-based sensors and new airborne and 
space-based platforms, and investing in advanced capabilities such as 
the ability to intercept ballistic missile threats earlier in their 
flight. The missile defense assets needed to protect the homeland will 
be constantly evaluated as we continue to defend the homeland from 
missile defense attack, consistent with the first policy priority 
established by the BMDR.
    Mr. Turner. Dr. Roberts, Phase 1 of the PAA calls for the 
deployment of a forward-based radar in Europe by the end of 2011. We 
are considering the Fiscal Year 2011 budget request yet we don't know 
where this radar will be located or how long host nation negotiations 
might take. Does the Department have a plan and schedule for deploying 
this radar and will the 2011 timeframe be met?
    Dr. Roberts. We are still in discussions with a potential host 
nation for the AN/TPY-2 radar at this time. However, the Department 
does have a plan for deploying this radar, and we expect the 2011 
timeframe to be met. We will consult closely with Congress as we 
proceed.
    Mr. Turner. Dr. Roberts, the BMDR states that the Phased, Adaptive 
Approach will be tailored to other regions. When will the committee see 
the regional missile defense architectures that are being developed? 
What force structure, inventory, and resource implications will these 
new regional missile defense architectures have?
    Dr. Roberts. The United States will pursue missile defense regional 
approaches that are tailored to the deterrence and defense requirements 
of each region. These approaches will evolve over time in accordance 
with the threats and circumstances unique to each region. They could 
vary considerably and may not resemble the four-phased European Phased, 
Adaptive Approach (PAA). In some regions, our regional missile defense 
efforts are already underway. In these regions, the architecture will 
change as the threat evolves and as new capabilities become available. 
Each of the major regions outlined in the Ballistic Missile Defense 
Review (BMDR) differ in their geography, history, existing military 
relationships, and threat environment. Although the approaches will 
vary, they will be guided by common principles. We will pursue efforts 
to strengthen regional deterrence architectures, field capabilities 
that are tailored to the threat, and focus on flexible and mobile 
capabilities that can adapt as needed.
    The Department will rely on the Global Force Management process to 
assist in decisions on the allocation of missile defense forces among 
the geographic combatant commands. This comprehensive force management 
process will adjudicate competing requirements of scarce missile 
defense assets from the various combatant commands. This approach 
underscores the value of developing capabilities that are flexible and 
adaptive and also relocatable, so that they can be surged into troubled 
regions in times of political-military crisis.
    Mr. Turner. General O'Reilly, last year, we asked several questions 
about the state of the GBI manufacturing line--was it hot or cold--and 
we were particularly concerned about 2nd and 3rd tier suppliers. Can 
you please update us on the status of the industrial base? And, more 
broadly, what impact does the recent NASA decision to terminate the 
Constellation program have on the missile defense industrial base? What 
do you believe needs to be done to stabilize the industrial base, 
particularly in the area of solid rocket motors and liquid rocket 
engines?
    General O'Reilly. MDA's most recent purchase of GBIs was December 
2006. Lower-tier GBI supplies began ``production breaks'' in 2007. The 
GBI 2nd tier supplier (Raytheon and Orbital) manufacturing lines are 
warm, and are expected to remain warm beyond 2016 through continued 
deliveries of on-contract GBIs, ongoing GBI refurbishments for 
operational and test GBIs, and the planned purchase of five (5) 
additional GBIs. As for the 3rd and 4th tier supplier manufacturing 
lines, all are expected to complete their deliveries in FY10 for on-
contract GBIs with the exceptions of Aerojet and Rockwell Collins.
    Additionally, MDA utilized the $50M FY10 Congressional Add to keep 
manufacturing lines warm for critical warm suppliers through the fiscal 
year. The following summarizes the content authorized to Boeing in 
January and April 2010:
    <bullet>  Booster Orion Motor Sets (ATK)--FY10 increment for eight 
(8) motor sets (completion and delivery of the motor sets will be 
continued under a separate future contract action)
    <bullet>  Booster Shrouds (Astech)--5 units
    <bullet>  EKV Communication Link Subsystem (Rockwell Collins)--FY10 
increment for 3 units (completion and delivery will be continued under 
a separate future contract action)
    <bullet>  EKV Inertial Measurement Units (Northrop Grumman)--2 
units
    <bullet>  EKV Laser Firing Units (L-3)--3 units
    <bullet>  EKV Electronics Units (Raytheon)--3 units
    <bullet>  EKV Electrical Conversion Units (Raytheon)--3 units
    <bullet>  EKV Structures (General Dynamics)--2 units.
    These purchases along with the five (5) additional GBIs and planned 
refurbishment component purchases are expected to sustain GBI 3rd and 
4th tier suppliers until FY13 and final GBI deliveries in 2016.
    MDA Solid Rocket Motor (SRM) Industrial Base (IB) impacts (THAAD 
and GBI) from the termination of the Constellation Program could 
include the following:
    <bullet>  Increased cost
    <bullet>  Suppliers exiting the business causing requalification 
expenses
    <bullet>  Schedules could lengthen as new suppliers need to qualify 
lines to replace those that may exit the business
    <bullet>  Prime contractor (ATK) decisions to ``right-size'' to 
match demand and restructure
    The impact to THAAD will be less than the impact to GBI since 
THAADs are being procured from Aerojet and Aerojet has already right-
sized.
    MDA's long-term plan to stabilize the high-tech SRM IB includes 
supporting the SRM IB Interagency Task Force development of a DoD 
Sustainment Plan. This plan would be inclusive of:
    <bullet>  Work with industry to ``right size'' and align capacity 
to reality
    <bullet>  Ensure long term viability of small and large SRMs 
(missile defense and tactical systems), and
    <bullet>  Closely monitor the already fragile critical sub-tier 
supplier base
    This task force will provide solid rocket motor industrial base 
sustainment recommendations to the Secretary of Defense for a 
subsequent report to Congress in approximately September, 2010.
    MDA also procures a small number of Divert Attitude and Control 
Systems (DACS) for the THAAD and EKV. These engines use a very small 
quantity of liquid propellant. The Industrial Base for both of these 
systems is healthy.
    Mr. Turner. General O'Reilly, please discuss the status of the SM-3 
Block 2A and 2B interceptor development efforts. What are the highest 
risk areas that could affect the availability of the SM-3 Block 2A and 
2B interceptors to meet Phase 3 and Phase 4 of the PAA, respectively?
    General O'Reilly. The Joint U.S.-Japan Standard Missile-3 Block IIA 
Cooperative Development (SCD) Project is will conduct its Preliminary 
Design Review (PDR) in January 2011. The SCD Project has successfully 
completed the first four steps for the PDR as planned, including 
reviews of Japan's Second Stage and Third Stage Rocket Motors. The SCD 
Project is on track to accomplish flight testing in November 2014 and 
March 2015, to support deployment in 2018 as part of Phased, Adaptive 
Approach Phase III.
    The SCD Project's highest development risk area is the Kinetic 
Warhead (KW). Particular areas of focus include the focal plane array 
production yield, the divert thruster survivability, and the KW dynamic 
body motion impact to image processing. The Project Team is actively 
engaged in defining and executing mitigation efforts to retire these 
risks prior to flight testing.
    The SM-3 Block IIB, is in the initial phase of technology 
assessment and development. The technical challenges in developing the 
Block IIB are dependent on the missile architecture and associated 
technologies selected for incorporation on the Block IIB. In general, 
technical challenges will be related to our goal of developing a 
faster, more flexible missile, which requires propulsion upgrades, 
controllability enhancements, and lighter weight components. 
Investments will be made to raise the maturity of key component 
technologies, with the goal of achieving Technology Readiness Level 
(TRL) 6 by 2013, to support the SM-3 Block IIB development program for 
Phase IV of the Phased, Adaptive Approach in 2020.
    To reduce risk on relevant technologies we will complete design 
trades, assess technology readiness and conduct technology 
demonstrations through 2010. Key activities will include technology 
assessments and missile architecture studies to define feasible missile 
concepts for the SM-3 Block IIB mission; investments in technologies 
that have the potential to provide higher velocity and energy 
management; mission analysis to determine the appropriate balance and 
trades between missile weapon systems and sensor capabilities leading 
to a definition of the Block IIB operations concept; and definition of 
the Block IIB acquisition strategy.
    Mr. Turner. General O'Reilly, at what point do you believe the 
Department needs to reevaluate its reductions to homeland defense 
(e.g., reducing the number of GBIs from 44 to 30) because the threat 
has changed? What policy and planning assumptions would have to change?
    General O'Reilly. [The information referred to is classified and is 
retained in the subcommittee files.]
    Mr. Turner. General O'Reilly, Phase 1 of the PAA calls for the 
deployment of a forward-based radar in Europe by the end of 2011. We 
are considering the Fiscal Year 2011 budget request yet we don't know 
where this radar will be located or how long host nation negotiations 
might take. Does the Department have a plan and schedule for deploying 
this radar and will the 2011 timeframe be met?
    General O'Reilly. The Department of Defense is considering 
locations in Southeast Europe for the forward-based AN/TPY-2 radar. It 
is difficult to predict exactly how long it will take to conclude the 
necessary host nation agreements once a country agrees in principle to 
host the radar. However, the Department is confident that agreements 
will be in place in time to support the 2011 deployment timeframe.
    Concurrent to negotiations with potential host nations, the Missile 
Defense Agency will work with the Joint Staff and the European 
Combatant Commander to deploy the radar in Phase I of the European PAA.
    Mr. Turner. General O'Reilly, the BMDR states that the Phased, 
Adaptive Approach will be tailored to other regions. When will the 
committee see the regional missile defense architectures that are being 
developed? What force structure, inventory, and resource implications 
will these new regional missile defense architectures have?
    General O'Reilly. Flexible and adaptable capabilities with global 
application to meet evolving threats are key attributes of the Phased, 
Adaptive Approach (PAA). As such, we are developing regional missile 
defense elements that can be adapted to address threats and the unique 
circumstances of each Combatant Command region.
    Missile defense architectures are determined by the Combatant 
Commanders. System and inventory requirements are determined by the 
Joint Staff in collaboration with the Combatant Commanders. They also 
develop the assignment of missions, tasks and forces. As a material 
developer, MDA will be responsible for developing the systems for the 
services to fulfill their Title X responsibilities to train and equip 
the military to support a Combatant Commander's request for forces and 
equipment.
    Mr. Turner. General O'Reilly, please describe the current 
developmental status and technical maturity of the 2-stage GBI and the 
SM-3 Block 2A and SM-3 Block 2B interceptors. What are the expected 
performance differences?
    General O'Reilly. The 2-stage Ground Based Interceptor (GBI) is a 
development and test program only. There are no plans at this time to 
produce or deploy operational 2-stage GBIs. Conversely, the Standard 
Missile 3 (SM-3) Block IIA and IIB missiles will be developed, tested 
and produced as operational interceptors.
    Should the decision be made in the future to pursue an operational 
2-stage GBI capability, its performance would vary from that of the SM-
3 interceptors. The 2-stage GBI is a land-based, fixed-site interceptor 
whose performance is similar to the currently deployed 3-stage GBI.
    The 2-stage GBI has completed System Requirement Review (SRR). The 
SRR examines the functional, technical, performance and security 
requirements for the system and the preliminary project plan. The 
project plan ensures the requirements and the selected concept will 
satisfy the system objectives. Currently, there are three 2-stage GBI 
flight tests planned (one 2-stage Booster Verification Test (BVT) and 
two 2-stage GBI flight tests). The first 2-stage GBI vehicle was 
delivered/emplaced in May 2010 in supported the fully successful 
initial flight test (BVT-01) on June 6, 2010. The remaining two 2-stage 
flight tests are scheduled for Fiscal Year (FY) 2012 and 2016.
    <bullet>  In a fully successful flight test, BVT-01 delivered a 
Capability Enhancement-I (CE-I) Exoatmospheric Kill Vehicle (EKV) to a 
predetermined aim point using a First Generation configuration 2-stage 
booster (test conducted on June 6, 2010). After separating from the 
second-stage booster, the kill vehicle executed a variety of maneuvers 
to collect data to further prove the performance of the kill vehicle in 
space.
    <bullet>  Flight Test GBI (FTG)-08 is an intercept flight test 
event of the 2-stage First Generation configuration avionics GBI with a 
CE-I EKV payload.
    <bullet>  FTG-17 is an intercept flight test event of the 2-stage 
Fleet Avionic Upgrade/Obsolescence Program configuration avionics GBI 
with a CE-I EKV payload.
    The Aegis BMD/SM-3 Block IIA is a sea- and land-based rapidly 
mobile, deployed and logistically supported system. It defends against 
Medium Range Ballistic Missiles and Intermediate Range Ballistic 
Missiles.
    The SM-3 Block IIA Cooperative Development (SCD) Project is 
executing section level Preliminary Design Reviews (PDRs) in 2010 in 
preparation for the missile system PDR in January 2011. The SCD Project 
has successfully completed the first four section PDRs as planned. The 
SM-3 Block IIA has completed System Concept Review (SCR). The SCR 
evaluates the scope, performance, cost, and risk, and determines a 
missile concept(s) and the employed technology. The program's SRR is 
scheduled for April 2011. The SCD Project is on track to accomplish 
flight testing in November 2014 and March 2015 and is scheduled to 
deploy by the end of FY18.
    The performance of the SM-3 Block IIB is dependent on the missile 
concept selected. The SM-3 Block IIB will use many of the technologies 
and the manufacturing base of the SM-3 family of interceptors enabling 
reductions in both technical risk and cost. The SM-3 Block IIB is in 
the concept planning stage with several missile configurations being 
considered. It has not completed a SCR. The SM-3 Block IIB missile 
concept and employed technology are in the early stages of evaluation.
    Initial results from system architecture studies and technology 
assessments show that a next generation SM-3 Block IIB missile using 
well understood technology can achieve the increases in burnout 
velocity and divert capability necessary to defeat ICBMs from forward 
based Aegis Ashore sites. MDA will leverage the SM-3 Block IA, IB, and 
IIA designs as well as propulsion investments made under the Kinetic 
Energy Interceptor and Multiple Kill Vehicle programs to develop the 
SM-3 Block IIB interceptor. The SM-3 Block IIB will also leverage the 
SM-3 Block IB kill vehicle to the maximum extent possible to reduce 
costs, schedule and risks for developing a new kill vehicle. We have 
planned eight years for technology development, system design, and 
integration and test prior to making a production decision in late 
FY18.
    Mr. Turner. General O'Reilly, why has MDA removed two planned 
flight tests of the 2-stage GBI from the budget request and delayed the 
first intercept test until 3 years after flight tests and delays. What 
is the rationale for this? Will such a delay preclude the 2-stage GBI 
from being considered as a viable hedge?
    General O'Reilly. Two 2-stage Ground-Based Interceptor (GBI) flight 
tests were not removed from our current test plan. The current test 
plan contains three 2-stage configured flight tests (one 2-stage 
booster verification test and two 2-stage GBI flight tests). These 
flights will yield data for both demonstrating 2-stage capability and 
anchor development models and simulations for both 2-stage and 3-stage 
designs.
    The 2-stage GBI builds upon the success of the 3-stage GBI and has 
95% commonality of existing flight-qualified 3-stage GBI components, 
except the third stage is removed.
    We tested the 2-stage GBI for the first time in June 2010 to verify 
differences between the performance of 2-stage and the 3-stage GBIs. 
After this test and evaluation of the results dealing with the 
subsequent intercept events, we will have characterized differences 
between the two and will be able to evaluate the performance of a 2-
stage GBI using data collected from 3-stage testing as well.
    The remainder of the test program is Exo-atmospheric Kill Vehicle 
focused (i.e., booster components are interchangeable). The 2-stage 
reuses existing flight-qualified components from its 3-stage 
counterpart. The most important component in a Ground-Based Interceptor 
is the kill vehicle. The kill vehicle for both the 2- and 3- stage 
interceptors are identical.
    The 3-stage GBI is the operationally deployed configuration; 
therefore most testing is with the 3-stage interceptor, but could be 2-
stage if required. As such, the 2-stage interceptor remains a potential 
hedge as defined in the Ballistic Missile Defense Review.
    Mr. Turner. Dr. Gilmore, please describe the current developmental 
status and technical maturity of the 2-stage GBI and the SM-3 Block 2A 
and SM-3 Block 2B interceptors. What are the expected performance 
differences?
    Dr. Gilmore. The two-stage Ground-Based Interceptor (GBI) is a 
variation of the deployed three-stage GBIs; a variation that does not 
include a final third stage. The first two-stage GBI has been built and 
is scheduled to undergo the first-ever flight test in June 2010. This 
first flight test is a non-intercept test with no target and is 
intended to demonstrate two-stage GBI silo launch and flyout. The two-
stage GBI, having never been flight tested, is less technically mature 
than the three-stage GBI.
    The Standard Missile-3 (SM-3) Block IIA interceptor has been in 
cooperative development with Japan since June 2006. The Block IIA 
interceptor completed a system design review in June 2009 and under 
current plans will participate in a booster performance test in 1QFY14, 
which will be followed by three other interceptor-only (no target) 
tests before its first intercept test in 2QFY15. The Block IIA 
interceptor includes a number of technology enhancements over currently 
fielded SM-3 interceptors. These enhancements have not yet been fully 
developed or flight tested. Thus, the technical maturity of the Block 
IIA interceptor is likely low-to-moderate, as would be expected for a 
program roughly half-way through its development.
    The SM-3 Block IIB interceptor is intended to have a smaller weight 
than that of the Block IIA interceptor, thereby increasing the flyout 
range and burnout speed. Although some of the Block IIB interceptor 
components from previous versions of the SM-3 may be applicable, many 
components will likely require completely new development. The SM-3 
Block IIB interceptor is currently in the later stages of conceptual 
development. Thus, the SM-3 Block IIB has a lower technical maturity 
than that of the Block IIA interceptor. The current Integrated Master 
Test Plan does not provide a flight test schedule for the Block IIB 
interceptor.
    Mr. Turner. Dr. Gilmore, why has MDA removed two planned flight 
tests of the 2-stage GBI from the budget request and delayed the first 
intercept test until 3 years after flight tests and delays. What is the 
rationale for this? Will such a delay preclude the 2-stage GBI from 
being considered as a viable hedge?
    Dr. Gilmore. The current Integrated Master Test Plan (IMTP) 
includes three flight tests of the two-stage Ground-Based Interceptor 
(GBI): a non-intercept first flight (BVT-01) in June of this year, an 
intercept flight test (FTG-08) in 4QFY12, and an intercept flight test 
(FTG-17) in 3QFY16. These tests are part of the overall IMTP objective 
to collect the data needed to anchor the GMD and BMDS models and 
simulation. These flight tests will characterize differences between 
the two- and three-stage GBIs and allow evaluation of the performance 
of a two-stage GBI using data collected from three-stage testing. This 
approach is possible because the two-stage GBI uses many of the same 
components as the three-stage GBI. The most specialized and critical 
technology in a GBI is the kill vehicle, which is the same for both 
interceptors. Successful completion of these three flight tests, in 
conjunction with other ground tests, will provide information that 
could be used to evaluate the potential performance of the two-stage 
GBI if it were used to defend Europe against ballistic missile attacks.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LARSEN

    Mr. Larsen. Dr. Gilmore's testimony reads: ``I am concerned that it 
[the Integrated Master Test Plan] is success-oriented with limited 
schedule flexibility and no incorporation of repeat, or backup, tests 
to compensate for test failures.'' He goes on to note that even one 
test failure in the Aegis system could jeopardize the deployment 
schedule for Phase 1. Do you believe the development and testing 
schedule for the SM-3 Blocks IA, IB and IIA is realistic and adequately 
accounts for the possibility of test failures? What steps do you 
believe should be taken to mitigate the possibility of test failures 
for the various blocks of the SM-3 missile system? Are additional steps 
needed to account for the possibility of target failures as well?
    General O'Reilly. The Integrated Master Test Plan (IMTP) is used to 
evaluate research and development milestones, technology maturity 
levels, and coverage and performance analysis. The Missile Defense 
Agency remains committed to successfully executing and completing the 
IMTP. The development and testing schedule within the IMTP is realistic 
and accounts for the possibility of testing anomalies. Within the IMTP, 
the test regime for the Standard Missile-3 (SM-3) variants follows the 
proven disciplines and procedures used during the Aegis BMD 3.6/SM-3 
Block I/IA and Aegis LEAP Intercept Programs.
    The IMTP establishes and documents test requirements for the 
variants of SM-3 with specific focus on collecting data needed for the 
Verification, Validation, and Accreditation (VV&A) of missile and 
threat models and simulations. Models and simulations permit repeated 
assessments of performance and provide a statistical determination of 
effectiveness of SM-3 capabilities. Ground tests using these high 
fidelity models and simulations test SM-3 capabilities across a range 
of threats and environments that cannot be affordably replicated in 
flight tests.
    Testing of the SM-3 Block IA is complete after FTM-15. In order to 
obtain the necessary data to anchor SM-3 Block IB models, we plan to 
test as quickly as is technically and reasonably possible. While the 
SM-3 Block IIA is currently in the ``planning'' stages within the 
context of the existing IMTP, testing will be conducted to collect data 
whenever possible.
    We will follow the same rigorous, practical and methodical approach 
to missile tests with each version of the SM-3 as we did with the 
earlier SM-3 variants. We will augment testing as necessary to overcome 
setbacks with remedial responses, including conducting additional tests 
to accelerate deliveries and enhancing instrumentation where required.
    Mr. Larsen. Dr. Gilmore, in your testimony you note: ``I am 
concerned that it [the Integrated Master Test Plan] is success-oriented 
with limited schedule flexibility and no incorporation of repeat, or 
backup, tests to compensate for test failures.'' You go on to note that 
even one test failure in the Aegis system could jeopardize the 
deployment schedule for Phase 1. Do you believe the development and 
testing schedule for the SM-3 Blocks IA, IB and IIA is realistic and 
adequately accounts for the possibility of test failures? What steps do 
you believe should be taken to mitigate the possibility of test 
failures for the various blocks of the SM-3 missile system? Are 
additional steps needed to account for the possibility of target 
failures as well?
    Dr. Gilmore. The currently-fielded SM-3 Block IA interceptor has 
flown in nine intercept flight tests (including three Japanese tests) 
against Short Range Ballistic Missiles (SRBMs) and a satellite shoot-
down in February 2008. Prior to the PAA Phase 1 deployment, one Block 
IA interceptor test (FTM-15) against an Intermediate Range Ballistic 
Missile (IRBM) target is planned for 3QFY11. Given a flight test 
failure, there would be little time to repeat the test in FY11 and the 
loss of information could potentially affect the plans for deploying 
Phase 1.
    SM-3 Block IB development is currently on-schedule for a 2QFY11 
intercept flight test. Once started, the Aegis BMD intercept flight 
test program with the Block IB includes tests occurring about every 
three to nine months. That frequency of testing could provide some 
margin for recovery if failures occur. However, it is difficult to make 
definitive claims regarding the sufficiency of that margin given that 
the Block IB interceptor includes technology enhancements that have not 
yet been flight tested.
    The developmental test schedule for the SM-3 Block IIA interceptor, 
as laid out in the Integrated Master Test Plan (IMTP), allows for about 
one year between an early booster performance test (1QFY14) and the 
first intercept test with the Block IIA (2QFY15). The current IMTP does 
not provide a test program beyond CY 2015; thus, it is not possible now 
to assess whether test plans beyond 2015 will provide margin for 
failures that could occur during developmental (or subsequent) testing.
    Concerning steps that should be taken to mitigate potential SM-3 
test failures, one approach is to ensure that quality assurance 
mechanisms remain in place. Interceptor failures during flight tests 
have often been related to reliability issues, some of which could have 
been mitigated by more robust quality assurance. The MDA has recently 
increased emphasis on its quality assurance program, which should 
decrease the number of interceptor failures. For targets, a way to 
mitigate test failures would be to include a backup target for each 
flight test. Many previous MDA flight tests have not included backup 
targets. The initial cost of testing would increase with the inclusion 
of backup targets, but many of the backup targets could be used in 
subsequent tests if they are not needed as backups. Provision of backup 
targets for future tests should become feasible as the MDA executes its 
revised approach for procuring targets.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. Dr. Roberts, what concerns you most about the 
industrial base? What actions have been taken and need to be taken to 
ensure an industrial base capable of producing the quality and quantity 
of product to meet current and long-term threats?
    Dr. Roberts. What concerns me the most about the industrial base is 
its ability to produce effective and affordable systems to meet the 
policy and strategy priorities of the Ballistic Missile Defense Review 
(BMDR).
    For specific questions related to the industrial base, I would 
defer to LTG O'Reilly and to the Under Secretary of Defense for 
Acquisition, Technology, and Logistics.
    Mr. Lamborn. Has the Administration completed a thorough analysis 
of worldwide missile defense architectures to support each phase of 
PAA? Please be specific with exactly what has been done in analyzing 
possible architectures and alternatives for these architectures for 
each phase of PAA. If the analysis has been done when will it be 
complete?
    Dr. Roberts. The Department of Defense conducted the first-ever 
Ballistic Missile Defense Review from March 2009 through January 2010. 
Required by statute, and guided by a Presidential directive, the review 
comprehensively considered U.S. BMD policies, strategies, plans, and 
programs. The initial study focused on missile defense in Europe. 
During the course of that review, numerous potential architectures were 
evaluated, and the European Phased, Adaptive Approach (PAA) was chosen 
based on the unanimous recommendation of the Secretary of Defense and 
the Chairman of the Joint Chiefs of Staff that the ``Third Site'' plan 
be revised.
    In terms of how this applies to other regions, we will pursue a 
Phased, Adaptive Approach within each region that is tailored to the 
threats unique to that region, including their scale, the scope and 
pace of their development, and the capabilities available and most 
suited for deployment.
    The Department will rely on the Global Force Management process to 
assist in decisions on the allocation of missile defense forces among 
the geographic combatant commands. This process will adjudicate 
competing requirements of scarce missile defense assets. This approach 
underscores the value of developing capabilities that are flexible and 
adaptive and also relocatable, so that they can be surged into troubled 
regions in times of political-military crisis.
    Mr. Lamborn. General O'Reilly, the Ground-based Midcourse Defense 
(GMD) system is expected to have a lifetime of 20 years. How many 
flight tests per year do you believe are necessary to ensure the long-
term reliability of the GMD system over its 20-year lifetime?
    General O'Reilly. By the end of 2020, MDA will have tested 20 GBIs, 
including previous GBI flight tests, and there are SRP flight tests 
planned beyond 2020. MDA plans one flight test per year from FY11 to 
FY20, with the exception of FY18 when two are scheduled, for a total of 
11 flights based on the current Integrated Master Test Plan (IMTP) 
dated 18 February 2010 and provided to Congress in March. This testing 
supports data collection for Critical Engagement Condition (CEC) and 
Empirical Measurement Event (EME) Model and Simulation (M&S) 
Verification, Validation and Accreditation (VV&A), and the Ground-Based 
Interceptor (GBI) Stockpile Reliability Program (SRP).
    Beyond 2020, six GBIs are allocated for both operational spares and 
SRP flight testing. However, flight testing is only one part of the 
SRP. The GMD sustainment program will maintain and support an effective 
defensive system meeting Warfighter requirements over the expected 20-
year life cycle and support a decision on potential Service Life 
Extension in 2027. Maintaining readiness of the GBI fleet will be 
accomplished through emphasis on key operational availability metrics, 
a comprehensive SRP that monitors the health and status of the fielded 
interceptors. For example, over a 20-year period MDA will conduct 4.3 
million maintenance built-in tests, which monitor the health and status 
of fielded interceptors and verify and determine GBI fleet readiness.
    The in-place Aging and Surveillance test program will improve 
estimates for interceptor reliability by testing aged hardware to 
determine natural degradation characteristics and to understand 
performance changes in the deployed fleet. By the end of 20 years, all 
known limited life items will be replaced in the GBI fleet. 
Refurbishments of operational and flight test interceptors also provide 
critical data points for the Aging and Surveillance Program. During the 
refurbishment process approximately 20 key samples (parts) are removed 
resulting in over 900 total samples taken. Another key activity of the 
Aging and Surveillance program is the static firing of eight motor 
stages (two 1st stages, three 2nd stages and three 3rd stages) and the 
dissection of two motor stages (one 1st stage and one 3rd stage) over 
the next 22 years.
    A GBI rotation program will also be used which removes older assets 
from the operational fleet and replaces them with newer GBIs off the 
production line. This reduces the average age of the fleet and uses the 
older, refurbished GBIs for test or operational spare requirements. The 
surveillance flight testing provides the most operationally realistic 
method of evaluating interceptor reliability performance assessment by 
using older removed GBIs from the operational fleet during IMTP test 
events, which are designed to accomplish performance and surveillance 
test objectives concurrently.
    The fiscal year 2011 President's Budget request lays out a plan 
that funds production start-up costs for cold GBI suppliers, and begins 
the acquisition of five additional GBIs. This planned acquisition will 
bring the GBI total to 52, and is consistent with the IMTP and 
stockpile reliability testing requirements to support the service life 
of the GMD element. A total of 52 GBIs completes the fielding of 30 
operational GBIs and delivery of 22 additional GBIs for testing, 
stockpile reliability and operational spare requirements. Of the 22 
GBIs, 16 GBIs are allocated to testing defined in the IMTP (two will be 
consumed in FY10) and by the end of 2020, six GBIs will remain for 
operational spares and SRP testing.
    Mr. Lamborn. According to MDA's budget documents, 14 GBIs will be 
available for flight testing. Do you believe MDA has programmed and 
budgeted for enough GBIs to support developmental and operational 
testing, as well as annual reliability flight testing?
    General O'Reilly. Yes. The fiscal year 2011 President's Budget 
request lays out a plan that pays production start-up costs for cold 
Ground-Based Interceptor (GBI) suppliers, and begins the acquisition of 
five additional GBIs beginning in fiscal year 2011. This planned 
acquisition will bring the GBI total to 52. This quantity satisfies the 
Integrated Master Test Plan (IMTP) and stockpile reliability testing 
requirements to support the service life of the Ground-Based Midcourse 
Defense (GMD) element of the Ballistic Missile Defense System. The 
total provides for completing the fielding of 30 operational GBIs and 
delivering 22 additional GBIs for testing, stockpile reliability and 
operational spare requirements.
    Of the 22 GBIs, 16 (not 14) are allocated to testing defined in the 
IMTP. The current IMTP v10.1, dated 18 February 2010 and provided to 
Congress in March, defines tests considered both Developmental Test/
Operational Test (DT/OT) flight tests and Stockpile Reliability Program 
(SRP) flight tests given that critical data is collected in each test 
for both DT/OT and SRP purposes. The six remaining GBIs are allocated 
for both operational spares and stockpile reliability tests beyond 
2020.
    MDA worked with the test community and together we determined that 
by 2019, if the tests are successful, we will have the data necessary 
to confirm the performance of the GMD system and all anticipated flight 
regimes. In addition, we have designed a missile with a capability of 
maintaining its health and status. As part of system operations and 
maintenance we constantly maintain the health and status of these 
missiles, we also run periodic checks thoroughly to verify its 
performance and the proper functioning of all of the systems. We will 
conduct 4.3 million checks through Built-In Tests (BIT) of these 30 
missiles over a 20-year period, plus 600 other tests where we remove 
the missiles, remove components from it, test those components and 
refurbish the missiles with brand new components.
    Mr. Lamborn. General O'Reilly, what concerns you most about the 
industrial base? What actions have been taken and need to be taken to 
ensure an industrial base capable of producing the quality and quantity 
of product to meet current and long-term threats?
    General O'Reilly. With the exception of solid rocket motors and 
propulsion systems, the Missile Defense Agency`s (MDA) industrial base 
is healthy. The Agency has taken several steps to ensure key industrial 
base suppliers remain viable, particularly with the Ground-Based 
Interceptor industrial base.
    The most recent purchase of Ground-Based Interceptors (GBIs) by the 
MDA was in December 2006. Some third and fourth tier GBI suppliers 
began ``production breaks'' in 2007. All third and fourth tier supplier 
manufacturing lines are expected to complete deliveries in FY10 for 
GBIs currently on contract, with the exception of Aerojet and Rockwell 
Collins.
    Congress provided an additional $50M in FY10 to assist in keeping 
manufacturing lines warm for critical suppliers through FY 2010 due to 
the fact that key suppliers are expected to complete deliveries in FY10 
for GBIs currently on contract. Accordingly, MDA authorized Boeing in 
January and April 2010 to purchase:
    <bullet>  Booster Orion Motor Sets (ATK)--FY10 increment for eight 
motor sets (completion and delivery of the motor sets will be continued 
under a separate future contract action)
    <bullet>  Booster Shrouds (Astech)--5 units
    <bullet>  EKV Communication Link Subsystem (Rockwell Collins)--FY10 
increment for 3 units (completion and delivery will be continued under 
a separate future contract action)
    <bullet>  EKV Inertial Measurement Units (Northrop Grumman)--2 
units
    <bullet>  EKV Laser Firing Units (L-3)--3 units
    <bullet>  EKV Electronics Units (Raytheon)--3 units
    <bullet>  EKV Electrical Conversion Units (Raytheon)--3 units
    <bullet>  EKV Structures (General Dynamics)--2 units.
    The new purchases above combined with the purchase of five 
additional GBIs and the purchase of planned refurbishment components 
are expected to sustain GBI 3rd and 4th tier suppliers until FY13.
    GBI second tier supplier (Raytheon and Orbital) manufacturing lines 
are warm and are expected to remain warm beyond 2016 with continued 
deliveries of on-contract GBIs, ongoing refurbishments of operational 
and test GBIs, and the planned purchase of five additional GBIs.
    Despite the general health of the industrial base, one area of 
general concern for MDA is the Solid Rocket Motor (SRM) industrial 
base. Concerns include the potential for:
    <bullet>  Increased cost
    <bullet>  Suppliers exiting the business causing costly 
requalification expenses
    <bullet>  Delivery schedules lengthen as new suppliers need to 
qualify lines to replace those that may exit the business
    Much of THAAD and SM-3 SRMs are produced at Aerojet, which is 
right-sized. ATK, which produces GBI SRMs, has not ``right-sized'' to 
match demand.
    MDA's long-term plan to sustain the high-tech SRM industrial base 
includes supporting the SRM Industrial Base InterAgency Task Force 
(IATF) development of a SRM Sustainment Plan. This plan includes:
    <bullet>  Working with industry to ``right size'' and align 
capacity to reality
    <bullet>  Ensuring long-term viability of small and large SRMs 
(missile defense and tactical systems), and
    <bullet>  Monitoring the fragile critical sub-tier supplier base
    MDA also procures a small number of Divert Attitude and Control 
Systems (DACS) for THAAD and GBI Exoatmospheric Kill Vehicles (EKVs). 
These engines use a small quantity of liquid propellant. The industrial 
base for both of these systems is healthy.
    Mr. Lamborn. General O'Reilly, do you believe we should continue to 
develop and test the 2-stage ground-based interceptor (for example, as 
a hedge against a possible Iranian break-out)?
    General O'Reilly. The Department of Defense is investing in new 
missile defense capacity and capabilities to hedge against future 
uncertainties in both the ballistic missile threat and the technical 
risk inherent to development plans. One such hedge effort is the 
development and testing of a 2-stage Ground Based Interceptor (GBI). A 
2-stage interceptor has less burn time than the 3-stage version, 
enabling operation within a shorter engagement timeline. As such, 2-
stage GBIs provide time for greater launch windows and additional shot 
opportunities to engage threat missiles in some scenarios.
    While there are no plans to field this interceptor at present, 
maintaining a 2-stage GBI development and testing program preserves the 
option to field missile defenses for defense of the homeland in a 
timely and effective manner. Accordingly, we will be flight testing the 
2-stage GBI for the first time in June 2010.
    Mr. Lamborn. General O'Reilly, Do you believe there should be a 
competition or clear criteria established for a down-select between the 
2-stage GBI and the SM-3 Block 2A and Block 2B interceptors which are 
planned to provide defense of Europe and the U.S. in the new Phased, 
Adaptive Approach? Right now, it would appear that the Department has 
put all its proverbial ``eggs'' in the SM-3 Block 2A and Block 2B 
``basket.''
    General O'Reilly. [The information referred to is classified and is 
retained in the subcommittee files.]
    Mr. Lamborn. General O'Reilly, Many aspects of a truly joint and 
integrated training program for missile defense hinge upon the release 
of an Operations Concept for Ballistic Missile Defense. What is the 
current status of an Operations Concept for Ballistic Missile Defense? 
Who are the key players in writing the concept and what is MDA's role, 
if any? Is there a deadline for the Operations Concept?
    General O'Reilly. The Commander, U.S. Strategic Command signed the 
Global Missile Defense Concept of Operations on February, 28, 2010. 
U.S. Strategic Command was assisted by the Joint Staff, Geographic 
Combatant Commanders, Joint Functional Component Command for Integrated 
Missile Defense, Services, and the Missile Defense Agency in writing 
the concept. Within the Concept of Operations, the MDA has been 
assigned several tasks that contribute to setting the conditions for 
missile defense operations by the Combatant Commands.
    Mr. Lamborn. General O'Reilly, I understand that MDA has a seat on 
the Integrated Missile Defense Training Working Group along with 
STRATCOM and Joint Forces Command. General Chilton testified in March 
that each Service is responsible for training their component of the 
Missile Defense System with the training for C2BMC yet to be assigned. 
How does the Integrated Missile Defense Training Working Group inject 
training recommendations into Service channels to address any 
shortcomings that arise during tests? How are training shortfalls in 
command and control at the Service and COCOM staff level resolved?
    General O'Reilly. In accordance with a U.S. Strategic Command 
Instruction, Missile Defense Training Qualification and Certification 
Program, the Integrated Training Working Group (ITWG) serves as an 
inter-agency/inter-Service and international partner advisory group to 
provide oversight for training initiatives, ensure Service and 
component representation in decision-making, and arbitrate training 
issues. The ITWG serves as an advisory forum for all Integrated Missile 
Defense training matters and facilitates the training efforts of the 
entire Missile Defense community.
    The ITWG does not inject training recommendations into Service 
channels. Training shortcomings that are identified during missile 
defense tests are injected into the Warfighter Involvement Process 
(WIP). The WIP is a multi-phased collaborative process linking 
combatant commands, international partners, Services, Defense Agencies, 
and the Joint Staff. Through this process stakeholders define desired 
(training) capabilities and evaluate enhancements to missile defense 
systems. Based on funding provided from Congress, the ITWG is 
conducting an independent training and education assessment of the 
Ballistic Missile Defense training and education needs across the 
Department of Defense. This study is being sponsored by the Joint Staff 
and overseen by a ITWG senior review panel.
    Ballistic Missile Defense command and control, specifically C2BMC 
initial and spiral update training are scheduled and completed no later 
than 30 days prior to the MDA Program Control Board-approved software 
spiral release date. When refresher, crew rotation, or specific event 
training is needed, training is provided ``on demand'' by mobile 
training teams. The requesting organization contacts the C2BMC Program 
Office training manager to convey training requirements and schedule a 
mobile training team visit. All training (initial, refresher, spiral 
update, crew rotation, and specific event) is conducted at the 
requestor's location.
    Mr. Lamborn. Dr. Gilmore, the Ground-based Midcourse Defense (GMD) 
system is expected to have a lifetime of 20 years. How many flight 
tests per year do you believe are necessary to ensure the long-term 
reliability of the GMD system over its 20-year lifetime?
    Dr. Gilmore. Continued flight testing will be necessary to assess 
GMD reliability over the lifetime of the system. The Air Force and Navy 
both conduct three to four flight tests per year for their Minuteman 
and Trident fleets respectively. These flight tests support large 
inventories of 350-450 missiles each. The number of flight tests 
conducted is based on a combination of statistical calculations, 
reliability experience to-date, and available funding.
    It is the system sponsor's responsibility to establish a life-cycle 
reliability program designed to demonstrate to the user that what has 
been delivered continues to be a viable weapon system. Typically, the 
developing command, the MDA, would recommend to the operating command, 
U.S. Northern Command, a flight testing program for the ground-based 
interceptor to verify missile reliability throughout its projected life 
time. The recommendation could include both ground and flight testing. 
This recommendation would be based on a number of factors including: 
demonstrated reliability in the developmental and operational test 
programs leading up to fielding; estimated or demonstrated reliability 
of the various missile components; complexity of the missile system; 
experience with other similar missile systems; ongoing developmental 
testing that could substitute for or supplement reliability testing; 
availability of operational assets for testing or for replacement on 
operational status if missiles are expended during reliability testing; 
funding available to execute a reliability test program; and the risk 
the operating command is willing to assume. These are the same kinds of 
considerations that have been part of the development of the flight 
test program for Trident and Minuteman.
    The GMD program will be in continual testing through 2020, the 
results of which will provide data on the system's reliability. I 
expect flight testing will continue beyond that time. The number of 
tests conducted will depend on the considerations described above.
    Mr. Lamborn. According to MDA's budget documents, 14 GBIs will be 
available for flight testing. Do you believe MDA has programmed and 
budgeted for enough GBIs to support developmental and operational 
testing, as well as annual reliability flight testing?
    Dr. Gilmore. The GMD flight test program is based on the 
requirements defined by the three-phased process that the MDA used to 
create the new, five-year Integrated Master Test Plan (IMTP) that I 
approved last July. This approach emphasizes testing under Critical 
Engagement Conditions (CECs) and during Empirical Measurement Events 
(EMEs) to collect the data on system performance necessary to verify, 
validate, and accredit, the GMD and Ballistic Missile Defense System 
(BMDS) models and simulations to be used to assess overall capability. 
The IMTP is a rigorous plan for obtaining the test information needed 
to assess GMD and BMDS performance quantitatively. If the MDA can 
execute the IMTP, the data needed to validate models and perform 
quantitative assessments of GMD and BMDS performance will become 
available.
    The MDA has programmed and budgeted for the GBIs needed to conduct 
the developmental and operational testing defined in the IMTP. 
Additional interceptors will be needed to conduct flight testing beyond 
2020 to verify GMD performance, including reliability. The number of 
tests conducted will depend upon a number of considerations including: 
demonstrated reliability in the developmental and operational test 
programs leading up to fielding; estimated or demonstrated reliability 
of the various missile components; complexity of the missile system; 
experience with other similar missile systems; ongoing developmental 
testing that could substitute for or supplement reliability testing; 
availability of operational assets for testing or for replacement on 
operational status if missiles are expended during reliability testing; 
funding available to execute a reliability test program; and the risk 
the operating command is willing to assume.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
